<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2020 BUDGET REQUEST FOR INDIAN PROGRAMS AND LEGISLATIVE HEARING ON S. 1211, THE AUTOS ACT</title>
<body><pre>[Senate Hearing 116-68]
[From the U.S. Government Publishing Office]




                                                         S. Hrg. 116-68
 
THE PRESIDENT'S FISCAL YEAR 2020 BUDGET REQUEST FOR INDIAN PROGRAMS AND 

             LEGISLATIVE HEARING ON S. 1211, THE AUTOS ACT

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
 
 
 
               U.S. GOVERNMENT PUBLISHING OFFICE 
 37-845 PDF             WASHINGTON : 2019
 
 


                       COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 15, 2019.....................................     1
Statement of Senator Daines......................................    17
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     4
Statement of Senator Smith.......................................    15
Statement of Senator Udall.......................................     2
    Prepared statement...........................................     3

                               Witnesses

Azure, Hon. Jamie, Chairman, Turtle Mountain Band of Chippewa 
  Indians; accompanied by Ron Trottier, Transportation Director..    24
    Prepared statement...........................................    26
Dummermuth, Matt M., Principal Deputy Assistant Attorney General, 
  Office of Justice Programs, U.S. Department of Justice.........     4
    Prepared statement...........................................     6
Tahsuda III, John, Principal Deputy Assistant Secretary, Indian 
  Affairs, U.S. Department of the Interior.......................    20
    Prepared statement...........................................    22

                                Appendix

Letters submitted for the record by:
    W. Ron Allen, Chairman/CEO, Jamestown S'Klallam Tribe........    34
    Hon. Fred Nelson Jr., Chairman, La Jolla Band of Luiseno 
      Indians....................................................    36
    Tlingit and Haida Indian Tribes of Alaska....................    39
Mandan Hidatsa and Arikara Nation, prepared statement............    31
Response to written questions submitted by Hon. Catherine Cortez 
  Masto to John Tahsuda III......................................    45
Ute Indian Tribe of the Uintah and Ouray Reservation, prepared 
  statement......................................................    33


THE PRESIDENT'S FISCAL YEAR 2020 BUDGET REQUEST FOR INDIAN PROGRAMS AND 
             LEGISLATIVE HEARING ON S. 1211, THE AUTOS ACT

                              ----------                              


                        WEDNESDAY, MAY 15, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:56 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will call this budget and 
legislative hearing to order.
    In our first panel, the Committee will receive the 
remaining testimony on the President's fiscal year 2020 budget 
request for Indian programs from the Department of Justice. 
Last week we heard from two witnesses from the Administration 
and the two tribal leaders representing national tribal 
organizations on the President's fiscal year 2020 budget 
request for Indian programs.
    The DOJ budget includes funding to address the priorities 
of reducing and preventing violent crimes and promoting public 
safety, increasing officer safety and wellness and reducing 
school violence, and improving the improving the juvenile 
justice system, as well as combatting the opioid abuse epidemic 
and supporting victims of crime. Through its offices and 
programs, the DOJ provides public safety and law enforcement 
resources to Indian tribes across the Country. No matter how 
small or large a tribe is, the DOJ provides support and 
resources to nearly 200 Indian reservations.
    For fiscal year 2020, the President has continued the 
support for sustained or increased funding for the Indian 
programs. We see this in the request for the tribal set-aside 
in the annual allocation from the Crime Victims Fund. This will 
be the third year that the tribal set-aside has been included 
in the budget request. One hundred ninety-six applications were 
received for phase one solicitation by Indian tribes applying 
for fiscal year 2018 CVF grant funding. The DOJ is currently 
working on the fiscal year 2019 funding, and I look forward to 
hearing how this grant funding is getting out the door to 
assist victims in Indian Country.
    For the DOJ witness today, I hope we can hear how the 
program and its funding are working efficiently. If the program 
is not functioning, now is the time to discuss how the 
Committee can be helpful.
    On April 11th, I introduced the Addressing Underdeveloped 
and Tribally Operated Streets Act, or AUTOS Act, with Senators 
Cramer and McSally. Approximately 147 miles of roads and 930 
bridges are located throughout Indian Country. These roads and 
highways are the lifeline of their communities.
    However, many of these roads and bridges are in dire need 
of repair and improvement. According to the Bureau of Indian 
Affairs, there is at least a $280 million backlog of deferred 
maintenance and BIA roads and only 17 percent of the BIA roads 
are considered to be in acceptable condition. The conditions of 
these roads may be a reason why motor vehicle crashes are a 
leading cause of unintentional injury and death for American 
Indians and Alaska Natives.
    S. 1211 would provide additional resources and tools at the 
Department of Transportation and the Bureau of Indian Affairs 
so that tribes can maintain, repair or replace damaged roads or 
bridges. Specifically, this bill would permit traffic safety 
projects that are identified by the Secretary of the Interior 
to be eligible for categorical exclusion--similar categorical 
exclusions are permitted by the Department of Transportation, 
authorize $46 million for the Bureau of Indian Affairs Road 
Maintenance Program with increases of $2 million per year, 
reinstate the Tribal Transportation Bridge program as a 
standalone program instead of a 2 percent carveout in the 
Tribal Transportation program, direct the Secretaries of the 
Interior and Transportation to work with Indian tribes in 
developing a standard and uniform crash report form, direct BIA 
law enforcement to use one standard crash report form, and 
increase funding available for the Tribal Safety Transportation 
Program Safety Fund from 2 percent to 4 percent.
    Before we hear from the witnesses, I want to turn to Vice 
Chairman Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for calling this 
hearing to continue consideration of the fiscal year 2020 
Presidential budget request. In light of this Committee's work 
to address tribal public safety, it is fitting that we have the 
opportunity to take a closer look at the Department of 
Justice's budget proposal.
    Since the 115th Congress, Chairman Hoeven and I have worked 
on a bipartisan basis to advance a number of tribal public 
safety bills, including the SURVIVE Act, Savanna's Act, and the 
Ashton Mike Amber Alert in Indian Country Act, which became law 
in April of last year. These bills are an important part of 
tackling public safety issues in Indian Country.
    But resources to implement and build on the laws we are 
working to enact are as critical as well. The Department of 
Justice plays a central role in providing those resources, 
resources for law enforcement, victim services, tribal justice 
system capacity building and Federal prosecutors. I was glad to 
see the Department propose to continue funding for the tribe's 
set-asides in the Office of Justice Program grants and the 
Crime Victims Fund. However, these set-asides don't absolve the 
Department from including tribes in its broader initiatives.
    The department says that addressing violent crime and the 
opioid crisis are two of its primary goals for fiscal year 
2020. But I saw little to no explanation of how DOJ's proposals 
for these issues include tribes. This Committee has focused on 
the problems of violent crimes and the opioids due to their 
devastating impact on tribal communities. In fact, just last 
week, I spoke on the Senate Floor about the extraordinarily 
high levels of violent crime facing Native women, families and 
communities. Addressing violent crime and getting to the root 
causes of the missing and murdered Indian women crisis will 
take a strong partnership between Congress, the Administration 
and the tribes, particularly to ensure that tribes have the 
jurisdictional and public safety resources they need to combat 
the crisis head-on. I hope the Department is prepared to 
explain how its budget proposal would support that partnership.
    In light of some concerning reports from tribes about how 
tribal grants at DOJ are being administered, I hope the 
Department is prepared to explain how it is living up to both 
its trust responsibilities and the Congressional intent behind 
directives included in the fiscal year 2018 and 2019 
appropriations laws.
    Thank you again, Mr. Chairman, for calling this hearing.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Thank you, Chairman Hoeven, for calling today's legislative 
hearing.
    S. 1211 is a positive step toward improving road safety for Indian 
Country. It ensures that crash data is collected uniformly and 
accurately, and provides much needed resources for safety improvements 
and road maintenance.
    It is no secret that the number of motor vehicle accidents on 
Indian Country's roads is extremely high.
    Over the years, numerous studies have shown that motor vehicle 
accidents are a leading cause of death for both Native children and 
adults.
    For example, a Centers for Disease Control and Prevention study 
showed that Native American infants under the age of one year are eight 
times more likely to die in a vehicle-related crash than other 
populations.
    And a National Highway Traffic Safety Administration study showed 
that between 1975 and 2002, the number of fatal motor vehicle crashes 
on Indian reservations increased more than 50 percent--while fatal 
motor vehicles crashes for the rest of the country declined by 2 
percent.
    As terrible as these statistics sound, it is much worse that these 
reports reflect. That is because many motor vehicle accidents go 
unreported.
    The 2015 FAST Act required a Department of Transportation report to 
summarize the quality of safety data for Indian Country, and made 
recommendations to improve the quality and availability of the data.
    The report confirmed that many of the accidents go unreported, and 
suggests that uniform data collection should be required.
    So I applaud the Chairman on working toward these goals in his 
bill.
    Although accurate, reliable data is critically important for 
targeted needs, we on this Committee shouldn't need to be convinced 
that the federal government's overall investment for reliable and safe 
surface transportation infrastructure needs to increase substantially.
    In the Committee's recent transportation oversight hearing, the 
Bureau of Indian Affairs testified that approximately 17,130 miles of 
B-I-A system roads are unimproved earth surface roads, and 4,720 roads 
are gravel.
    Based on years of testimony, and what I've seen personally in 
Indian Country, some of these roads are treacherous in inclement 
weather. This is without question a contributing factor to motor 
vehicle accidents in Indian Country.
    The need for infrastructure investment in Indian Country is great, 
and it is urgent. So I'm pleased to see that the President has once 
again started talking about infrastructure and has agreed in principle 
to a $2 trillion dollar infrastructure package.
    I'm hopeful that if talk turns to action, we'll see a large 
investment towards Indian Country's infrastructure needs.
    And as long as I'm here, I am committed to working with the 
President and Congress to make sure that Indian Country is not left 
out.
    Thank you again, Mr. Chairman for calling this hearing. I look 
forward to the feedback on this important bill and to learning more 
about the issues.

    The Chairman. All right. Are there any other opening 
statements? Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Mr. Chairman, thank you. Just very 
briefly and following on Senator Udall.
    I think so many of us on this Committee are focused very 
keenly on the devastating statistics as they relate to our 
Alaska Native and American Indian women in particular, whether 
it is murdered and missing, whether it is the domestic violence 
statistics that we see. The levels that we see reported are not 
only staggering, they are wrong. We talk about that a lot in 
this Committee. Unfortunately, we are not seeing that curve 
moving in the right direction.
    So know that I certainly intend to work with all of my 
colleagues on the Committee on this issue of murdered and 
missing indigenous women, Savanna's Act, our Not Invisible Act. 
But we do need the Administration to be weighing in with us on 
this. We do need the support translating into budget support 
because the reality is that this situation has been allowed to 
continue to a point that it was intolerable to begin with and 
it is simply not acceptable.
    So as we resource it, as we make sure that law enforcement 
is there for all Americans, regardless of where you live, we 
have a commitment to make this happen. I am going to have some 
pretty pointed questions to Mr. Dummermuth on the VOCA programs 
and how we are making sure that we are putting resources on the 
ground. I thank him for being here today, and thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Murkowski.
    With that, we will proceed to Mr. Dummermuth, the Principal 
Deputy Assistant General, Office of Justice Programs, U.S. 
Department of Justice. Mr. Dummermuth, you may proceed.

  STATEMENT OF MATT M. DUMMERMUTH, PRINCIPAL DEPUTY ASSISTANT 
              ATTORNEY GENERAL, OFFICE OF JUSTICE 
              PROGRAMS, U.S. DEPARTMENT OF JUSTICE

    Mr. Dummermuth. Thank you, Chairman Hoeven, and thank you, 
Vice Chairman Udall and members of the Committee.
    I am very pleased to be here to discuss the President's 
budget request for fiscal year 2020, in particular the 
substantial investments he proposes to support public safety in 
Indian Country and tribal communities.
    I have the privilege of leading the Office of Justice 
Programs, the research, statistical and principal funding arm 
of the Department of Justice. Along with OJP, the other grant-
making offices, the Office of Community-Oriented Policing 
Services, the Office on Violence Against Women, our role is to 
support tribal, State and local efforts to fight crime, serve 
victims and administer justice. As you will hear, our work in 
tribal communities is extensive.
    Having served as a U.S. Attorney in the Northern District 
of Iowa, I am very familiar with the public safety challenges 
faced by citizens in rural America. As the members of this 
Committee are aware, nowhere in the United States are those 
challenges felt more acutely than in Indian Country.
    A 2016 report by the National Institute of Justice found 
that more than four in five American Indian and Alaska Native 
adults have experienced some form of intimate partner violence 
in their lifetime. Tribal youth, too, have been exposed to 
violence at staggering rates and suffer from high rates of 
post-traumatic stress.
    As this Committee knows all too well, the tribe's resources 
to fight this epidemic of violence are often inadequate to the 
task. I have seen what tribal officials are up against. I just 
returned from a two-week site visit to Alaska where I had the 
privilege of traveling to several Native villages and met with 
tribal leaders, court officials and public safety and victim 
service professionals. These villages are isolated, close-knit 
communities, many with limited infrastructure and public safety 
resources where acts of violence affect every one of their 
members.
    One of my stops was the city of Kotzebue in the Northwest 
Arctic Borough, which is still coping with the murder of ten-
year old Ashley Johnson-Barr. As I met with tribal officials 
there and in other villages, I heard them explain that 
tragedies like Ashley's are far from uncommon. The Alaska 
Native people, especially women and children, live every day 
with the prospect of violence. It is very clear to me, as I 
know it is to all of you, that curbing violence in Native 
communities is a matter of the greatest urgency.
    The President's budget request recognizes the gravity of 
the problem and proposes to direct considerable resources to 
supporting tribes as they develop solutions. The Department of 
Justice, under this Administration, has invested substantially, 
in fact historically, in Indian Country. During fiscal year 
2018, the Department's grant-making offices awarded 225 grants 
totaling more than $113 million under a coordinated tribal 
assistance solicitation, or CTAS, as we call it. CTAS covers a 
range of tribal public safety issues and it enables tribes to 
apply for grants based on their own public safety needs under a 
single application.
    In addition, we awarded 154 grants totaling $88 million 
under the first-ever tribal victim service set-aside. These 
grants support a variety of tribally-based victim assistance 
programs. Additionally, approximately $168 million is available 
to tribes under the victim set-aside in the current fiscal 
year, plus what is available to them under CTAS.
    The President's budget will build on both sets of 
investments. He requests a total of $523 million in tribal 
public safety and corrections resources, including $298 million 
in grant funding. This set-aside program, which constitutes 7 
percent of OJP's discretionary funding, will support a range of 
tribal public safety and crime victims programs from healing 
and wellness courts and reentry programs to civil legal 
assistance and justice system planning activities. These 
resources will also bolster our Tribal Access Program, referred 
to as TAP, which helps tribes access national civil and 
criminal data bases that house protection orders and 
information about sex offenders and missing persons.
    The President's budget provides money to hire tribal law 
enforcement officers, address violence against Native women and 
youth, and expand our commitment to the safety of American 
Indian and Alaska Native communities. With these investments, 
we will be able to deliver many of the resources tribes need to 
protect their citizens, safeguard their communities and serve 
crime victims. We will continue to work with this Committee to 
make sure these resources are used effectively and to see that 
greater justice is carried out in Indian Country.
    Thank you for your time, and I look forward to answering 
any questions you may have.
    [The prepared statement of Mr. Dummermuth follows:]

 Prepared Statement of Matt M. Dummermuth, Principal Deputy Assistant 
   Attorney General, Office of Justice Programs, U.S. Department of 
                                Justice
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for this opportunity to discuss President Trump's budget 
request for fiscal year (FY) 2020, particularly the substantial 
investments he proposes to support public safety in American Indian and 
Alaska Native communities. My name is Matt Dummermuth, and I am the 
Principal Deputy Assistant Attorney General in charge of the Office of 
Justice Programs (OJP), the research, statistical, and primary funding 
arm of the Department of Justice (DOJ).
    I appear before you today on behalf of the entire Department. As 
you know, the Department plays a central role in carrying out federal 
Indian policy, alongside other agencies such as the Department of the 
Interior and the Department of Health and Human Services. Under the 
leadership of Attorney General Barr, DOJ is committed to honoring 
tribal sovereignty and working with tribal leaders on a government-to-
government basis to help ensure public safety in native communities.
    This committee hardly needs to be reminded of the serious 
challenges tribes face in combating violence and administering justice. 
As the President noted in his recent Missing and Murdered American 
Indians and Alaska Natives Awareness Day Proclamation, ``Too many 
American Indians and Alaska Natives are the victims of abuse, sexual 
exploitation, or murder--or are missing from their communities.'' 
Indeed, the issues facing tribal communities are both prevalent and 
pervasive. According to a landmark study of intimate partner violence 
funded by our National Institute of Justice (NIJ) and released in 2016, 
more than four in five American Indian and Alaska Native adults have 
experienced some form of violence in their lifetime, and more than half 
of all American Indian and Alaskan Native women experienced sexual 
violence in their lifetime. That is almost three million people who 
have experienced stalking, physical or sexual violence, or 
psychological aggression by intimate partners. It is also worth noting 
that almost all American Indian and Alaska Native victims reported 
experiencing violence at the hands of a non-native perpetrator at least 
once in their lifetime. In addition, reports funded by DOJ have exposed 
the staggering rates at which American Indian and Alaska Native 
children and youth experience violence and post-traumatic stress.
    As if the sheer scale of violence were not enough, the resources 
that tribal professionals have at their disposal are often limited. It 
is an understatement to say that these men and women are often 
overstretched. Another NIJ report on policing in Indian country found 
that the typical tribal police department serves an area the size of 
the state of Delaware with a patrol of no more than three officers. I 
just had the privilege of visiting several native villages in Alaska, a 
truly eye-opening experience. I met with tribal leaders and justice 
system officials, who also showed me around their communities. I 
learned much about Alaska Native villages and the numerous challenges 
they face. On May 1, I participated in OJP's Office for Victims of 
Crime (OVC) consultation with tribal leaders and representatives, and I 
can speak firsthand about the lack of resources available to tribal 
authorities to ensure law and order and respond to victims. Native 
villagers live in some of the most beautiful locations on earth, but 
the word ``remote'' does not begin to describe them. The President's 
Budget recognizes the gravity of the problem, and proposes to direct 
considerable resources to supporting tribes as they develop solutions.
    The Department of Justice has an extensive history of supporting 
tribal public safety and victim assistance. During FY 2018, DOJ's 
grant-making offices--OJP, Office of Community Oriented Policing 
Services (COPS Office), and the Office on Violence Against Women 
(OVW)--awarded 225 grants totaling more than $113 million to 125 
separate tribes under our Coordinated Tribal Assistance Solicitation 
(CTAS), which is our primary mechanism through which tribes apply for 
DOJ funding. CTAS enables tribes to apply for grants based on their own 
public safety needs, not according to some generic criteria that may or 
may not make sense for tribal applicants. Under CTAS, tribes can search 
grant opportunities by ten purpose areas--ranging from policing to 
services for sexual assault victims. They can then submit an 
application that outlines their public safety goals. We have seen 
success come from these awards. For example, the Pueblo of Jemez 
received a grant to start a community outreach and victim assistance 
program to combat elder abuse, a problem that is affecting a growing 
number of seniors throughout America. The Jemez program developed an 
elder code, created a system of elder advocacy services, and launched a 
public education campaign. This year, we established an additional 
purpose area to address violent crime in Native lands. The new purpose 
area (#10) is designed to provide key funding to Tribal justice systems 
to focus on combating, addressing, and responding to precipitous 
increases in crime within tribal communities. The goal is to assist 
tribes to increase their capacity to work with federal, state and local 
partners to investigate and prosecute serious and violent crimes, 
including any investigations of missing or murdered tribal members.
    In addition to CTAS resources, a total of 154 grants totaling $88 
million were awarded as part of OVC's first Tribal Victim Service Set-
Aside program supported by the Crime Victims Fund, a repository of 
federal criminal fines, fees, and special assessments. The fund 
includes zero tax dollars. These awards support child and elder 
victims, domestic violence and sexual assault survivors, victims of 
human trafficking, families of homicide victims, and people who have 
been victimized as a result of the opioid crisis. Even more funding--
$168 million--will be available under the set-aside this year.
    DOJ has also created and invested in innovative training and 
assistance programs, which will be instrumental to the tribes in 
developing victim service programs. For instance, programmatic 
technical assistance is available to help develop the programs proposed 
by the tribes, and likewise a Financial Management Training Center now 
offers the tools and training to establish strong accounting systems 
and other important principles to increase the chance of success for 
the grantees. This training is designed for individuals responsible for 
the financial administration of grants awarded from federal programs 
administered by various bureaus and offices at the Department, and DOJ 
is offering an online version of the seminars to give tribes the 
ability to complete federal grants management training, regardless of 
their location. All of these new programs will help improve the 
response of tribes to the victims of crime. This year, OJP will 
continue to support a range of critical training and technical 
assistance to tribes including regional trainings available for all 
tribes on ways to prepare for and apply for funding to support their 
work. In FY 2020, OJP's Bureau of Justice Assistance is planning to 
launch new training and technical assistance specifically to support 
native Alaskan Villages and native corporations.
    Much has been said about the levels of crime and violence in Indian 
country and the Alaska Native villages and the ``missing and murdered 
crisis'' within the American Indian and Alaska Native tribal 
communities. We know the loss, trauma, and need for answers span 
generations. To that end, NIJ's National Missing and Unidentified 
Persons Program, also referred to as NamUs, is addressing the issue of 
missing and murdered indigenous women and children. In December 2018, 
NamUs added five tribal data fields to its system to assist all law 
enforcement and the families of the missing to add tribal detail to the 
cases that are entered. NamUs also started a Victim Services Unit in 
March of this year with funding from OVC. This unit will address the 
needs of all victims and the families of the missing persons that are 
entered into NamUs, including those in tribal communities. Recognizing 
that AI/AN cases were underrepresented in NamUs, NIJ and NamUs staff 
have made significant and targeted efforts to increase awareness over 
the past two years. We have launched an outreach campaign to tribal law 
enforcement, leadership, and community members to ensure the 
communities are aware of the technology and technical assistance, which 
is available free to all tribal nations.
    Additionally, the Department is committed to improving the 
collection of tribal crime data. We are partnering with the Bureau of 
Indian Affairs (BIA), Office of Justice Services to conduct the 2019 
Census of Tribal Law Enforcement Agencies, which we expect later this 
year. This is the first tribal law enforcement collection since the 
passage of the Tribal Law and Order Act (TLOA) in 2010, and will 
feature information on staffing and workload activities, including how 
both tribal and BIA police departments respond to domestic violence, 
opioids matters and human trafficking on tribal lands. We are also 
pleased to report that we are actively working with over 150 tribes on 
sex offender registration and notification, and 134 tribes have already 
substantially implemented the Sex Offender Registration and 
Notification Act (SORNA), Title I of the Adam Walsh Child Protection 
and Safety Act. These tribes are now added to the comprehensive 
nationwide network of jurisdictions sharing sex offender registration 
data and are connected to the National Sex Offender Public Website. We 
continue to provide extensive training and technical assistance to 
tribes to implement and maintain their sex offender registration and 
notification duties and, in FY 2018, OJP's Office of Sex Offender 
Sentencing, Monitoring, Apprehending, Registering, and Tracking 
provided $5.1 million under the Support for Adam Walsh Act 
Implementation Grant Program to 21 tribes.
    These are historic investments in tribal public safety and victim 
assistance programs, and the President's Budget for FY 2020 proposes to 
build on this commitment. The budget requests a total of $523.1 million 
in tribal public safety resources, including $298 million in grant 
funding and $152 million for the Federal Bureau of Prisons to support 
the Native American inmate prison population. This would be an increase 
over FY 2019 funding.
    In a demonstration of the Administration's commitment to its tribal 
partners, the President's FY 2020 Budget requests a set-aside of up to 
seven percent of OJP's discretionary funds to support public safety and 
victim assistance in Indian country. This set-aside, which we estimate 
will amount to approximately $127.1 million, will provide a flexible 
and consistent source of grant funding for tribes by providing the 
resources for tribal efforts to prevent, treat, and address crime and 
substance abuse. This will be done through efforts such as tribal 
courts, prosecution, and healing to wellness courts, victim service 
programs, tribal criminal and civil legal assistance, and tribal 
probation, jails and reentry programs. The set-aside will also support 
tribal justice system planning, including activities outlined in TLOA, 
and critical investments in tribal justice infrastructure through 
renovation and repurposing of tribal justice facilities. In addition, 
it would fund tribal youth programs and a tribal youth resource center 
that provides free training and technical assistance to all federally 
recognized tribes.
    The set-aside could also be used to support the Tribal Access 
Program (TAP), which allows tribal criminal and non-criminal justice 
agencies to access national crime databases, enabling them to enter and 
access protection orders and information about missing or wanted 
persons, obtain criminal histories, input sex offenders into the 
Federal Bureau of Investigation's National Sex Offender Registry, and 
exchange critical data across the Criminal Justice Information Services 
systems.
    In addition, the FY 2020 President's Budget also requests an 
allocation of $115 million from the Crime Victims Fund for the Tribal 
Victim Service Set-Aside program and other efforts designed to serve 
American Indian and Alaska Native crime victims.
    Turning to DOJ's other grant-making components, the COPS Office 
includes two programs designed specifically for tribes--the Tribal 
Resources Grant Program and the COPS contribution to TAP. The Tribal 
Resources Grant Program will be supported by funding derived from OJP's 
discretionary tribal assistance set-aside in FY 2020. This program, 
which is available to tribes through the CTAS, provides 100 percent of 
funding for an officer's salary and benefits for three years. It also 
covers costs for equipment and training, as well as efforts to fight 
methamphetamine and heroin addiction.
    In addition, tribes are eligible for funding under the COPS Hiring 
Program, which provides 75 percent funding for officer salary and 
benefits for three years. The FY 2020 President's Budget requests $99 
million in funding for this program under OJP's State and Local Law 
Enforcement Assistance account. In addition to supporting the hiring of 
law enforcement officers, the COPS Hiring Program also supports the 
Collaborative Reform Initiative Technical Assistance Center, or CRI-
TAC. This resource provides critical technical assistance to government 
law enforcement agencies, including tribal agencies. This assistance is 
tailored to the tribe's specific needs and is available on a ``by-the-
field, for-the-field'' approach that uses leading experts in a range of 
topics related to public safety, crime reduction, and community 
policing. Because different needs require different methods, CRI-TAC 
uses a variety of approaches, such as training, peer-to-peer 
consulting, analysis, coaching, and strategic planning.
    The FY 2020 President's Budget for OVW consists of $56 million to 
support programs and initiatives in Indian country. Of this amount, 
$40.2 million is for OVW's Tribal Governments Program, which is 
designed to enhance the ability of tribes to respond to domestic 
violence, dating violence, sexual assault, and stalking; enhance victim 
safety; and develop education and prevention strategies. This amount 
also includes $6.8 million for the Tribal Coalitions Program, $3.5 
million for the Tribal Sexual Assault Services Program, $500,000 for 
the Indian County Sexual Assault Clearinghouse, $1 million for Research 
on Violence Against Indian Women, and $4 million for the Tribal Special 
Domestic Violence Criminal Jurisdiction Program.
    Within OVW, tribes are also eligible to apply for a number of other 
OVW discretionary grant programs, including programs focused on abuse 
in later life, the needs of victims with disabilities, and challenges 
faced by rural communities in addressing domestic violence, dating 
violence, sexual assault, and stalking.
    The Department also seeks authority to use prior year OVW 
appropriations for tribal-specific sex offender and protection order 
registries to provide funds to tribes through TAP. The Department has 
concluded that, rather than investing funds in developing new and 
incomplete tribal-specific registries, the purpose for which these 
funds were appropriated--protecting tribal communities from 
perpetrators of domestic and sexual violence--would be better served by 
facilitating tribes' ability to enter and obtain information from 
existing federal databases.
    I hope you will agree that these are substantial investments that 
reflect a strong commitment on the part of this Administration to 
support our tribal partners. Of course, these budget items are only one 
element--albeit a significant element--of the Department's efforts to 
enhance public safety in American Indian and Alaska Native communities.
    We are moving forward with activities to address the crisis of 
missing persons in Indian country. In my dual role as National AMBER 
Alert Coordinator, I am devoting resources to fortifying the network of 
AMBER Alert systems in Indian country, including an AMBER Alert in 
Indian Country training conference that will be held at the end of July 
2019. We continue to hold a regular series of government-to-government 
consultations and listening sessions with tribes, along with a biennial 
Indian Nations Conference that brings together hundreds of tribal 
officials from across the country to be trained on a range of public 
safety issues. We are helping to combat sex trafficking which can bring 
victims from American Indian and Alaska Native communities into urban 
areas where they are often lost and forgotten.
    And beyond the Department's grant-making components, DOJ works 
through the Office of Tribal Justice and the network of tribal liaisons 
in the Offices of the United States Attorneys to improve law 
enforcement functions and reduce crime. The Executive Office for U.S. 
Attorneys also trains federal, state, local, and tribal attorneys and 
law enforcement staff on law enforcement issues in Indian country. In 
addition, the Environment and Natural Resources Division represents the 
Department of the Interior and other federal agencies on litigation 
matters related to water rights, reservation boundaries, land-into-
trust decisions, and other matters affecting federally recognized 
tribes and their members.
    As I mentioned earlier, I visited a handful of tribes in Alaska of 
varying sizes, with varying needs, in different parts of the state with 
different geographic and climate challenges, in addition to having 
participated in a tribal consultation. The feedback I heard at our 
consultation, and the conversations I had through my additional 
meetings, both served to reinvigorate my commitment to finding 
solutions to address these issues tribes confront and deepened my 
understanding of the real, on-the-ground, practical challenges facing 
tribal communities.
    The Department of Justice remains committed to working with our 
tribal partners. With the investments requested in the FY 2020 
President's Budget, I am confident that we will help deliver the 
resources they need to protect citizens, safeguard their communities, 
and serve crime victims. We will continue to work hard, along with this 
committee, on their behalf. Thank you, and I look forward to addressing 
your questions.

    The Chairman. Thank you, Mr. Dummermuth. We will begin with 
five-minute rounds of questions.
    In your testimony you wrote that $88 million has been 
awarded as part of the Office for Victims of Crime for its 
Tribal Victims Services set-aside program. As you may know, in 
2018, we set aside about $133 million in funding for Indian 
tribes. Where is the remaining 2018 tribal set-aside funding? 
What does the DOJ plan on in terms of redistributing these 
resources to Indian tribes?
    Mr. Dummermuth. Since receiving that money in fiscal year 
2018, OVC, our Office for Victims of Crime has been working 
diligently to quickly turn around those funds, and did so in an 
expedited timeline. Actually, they were very successful. We 
received 195 applications, which was quadruple the amount of 
tribes that had previously applied under CTAS for victim 
service funding. We were able to fund 154 of those. So the 
level of increase that we did get out to the field was 
substantial. For the successful applicants, we were able to 
give out more money in each particular award than they would 
have normally gotten as well.
    One of the bigger challenges we have in getting that money 
to the field is many tribes did not have the infrastructure in 
place to apply for and manage those grants effectively. So we 
are committed to working with the tribes to ensure that they 
successfully manage that. We established a financial management 
center to help both successful and unsuccessful tribes to build 
up their capacity to both be able to apply and manage these 
types of grants. The money that we didn't get out to the field 
is going back to the Crime Victims Fund. So that is available 
in future years to allocate back to the tribes if the Committee 
wants to do that, if the appropriations committee wants to do 
that.
    The Chairman. Recently, the National Missing and 
Unidentified Persons Systems added five tribal data fields to 
its system to better assist law enforcement and Native victims' 
families in locating missing or unidentified persons. Can you 
describe for us the five data fields and how these new fields 
will help locate missing and unidentified persons who may be 
Natives?
    Mr. Dummermuth. Thank you for that question. The five new 
fields, which were implemented in end of 2018, so they were 
operational in January 2019, include the individual's primary 
residence, if it is located on or near tribal lands. The second 
field is for their tribal enrollment or affiliation status. The 
third one is their last-known location, located on or near 
tribal lands. The fourth one is the location of any remains on 
or near tribal lands. The fifth is whether the tribe 
participates in the Tribal Access Program.
    The purpose of those five new fields is to enable the 
reporting of more specific data related to missing and 
unidentified Native persons. When those fields were released, 
we sent an alert to all the registered users already involved 
in that system. Some tribe began right away adding that 
information, like the Navajo Nation did, I think, very quickly. 
Part of the way we are trying to increase the use of NamUS and 
those new data fields is we continue to do outreach to ensure 
everybody is aware of the new fields. We are also going to 
monitor that to see if additional fields might be useful to 
enhance case investigation or case resolution as we monitor how 
it is being used this first year.
    The Chairman. How does the implementation of the Sex 
Offender Registration and Notification system by tribes, how is 
that working to protect children in the foster care system?
    Mr. Dummermuth. For tribes that implement SORNA, they are 
required to submit sex offender biometric and biographical data 
to the FBI data bases. Our SMART office works with them whether 
through the Tribal Access Program or via memoranda of 
understanding with local counties, or sheriffs' offices or 
State registries. That ensures when that information is added 
that sex offenders registering with tribal jurisdictions are 
flagged as sex offenders nationwide.
    So what that means is when someone does a criminal 
background check, perhaps for foster care placement, or maybe 
for employment-related, to dealing with children, then that 
person is going to show up in the background check. So the more 
tribes that are involved in implementing SORNA, the better, 
because it will help with both foster care and employment 
checks.
    The good news is, we have quite a few tribes that are 
substantially implemented. In fact, they are doing a better job 
than the States, probably, in getting their programs 
implemented.
    The Chairman. That is encouraging. Vice Chairman Udall.
    Senator Udall. Thank you, Chairman Hoeven.
    Mr. Dummermuth, in reviewing the Department's budget 
proposal, there are five public safety areas the President 
would focus his proposal on: national security, violent crime, 
immigration, opioids and recidivism. But it is unclear how the 
proposals in the budget related to these priorities would 
improve public safety in Indian Country. As one example, the 
Department asks for $138 million to reduce violent crime by 
hiring 135 positions within the FBI, the U.S. Marshal's Service 
and the U.S. Attorney's offices.
    So my question to you and to the Department of Justice, Mr. 
Dummermuth, is, can you provide more detail about the 
background of these 135 new employees, where they will be 
placed? And will any of them focus on lowering violent crime in 
Indian Country specifically?
    Mr. Dummermuth. I can't provide you that specific 
information today, but I am happy to get back to you about 
that. What I can say, certainly the FBI is involved in 
investigating violent crime against Native American and Native 
Alaskan tribes and tribal members. Certainly, the U.S. 
Attorney, they are actively involved in looking at violent 
crime in Indian Country and Native communities. So those funds 
certainly could be used for that. But I will get back to you on 
the specifics.
    Senator Udall. Please get back to us on the specific 
commitments to Indian Country.
    Mr. Dummermuth. I will be happy to look into that.
    Senator Udall. Very specifically. Go ahead, you were going 
to say something else.
    Mr. Dummermuth. And we do have a lot of programs through 
Office of Justice Programs and COPS Office that focus on 
violent crime. Those funds, most of them are available as well. 
So if we put out a solicitation for reducing violent crime, 
Native American communities can apply for that just like any 
other communities e. We did add a new purpose area just for 
tribes in CTAS this year for violent crime initiatives. So only 
tribes are eligible for that funding.
    Senator Udall. Now, according to the Department, the FBI 
had 138 special agents working on cases in Indian Country in 
2017. Last December at this Committee's Murdered and Missing 
Indigenous Women Oversight Hearing, I ended by asking, do we 
have adequate law enforcement officers in Indian Country to do 
the job. I urged the BIA and the FBI to make sure their budget 
request reflects the level of need. I said ``Put in the request 
and ask for the adequate number of law enforcement officers 
that are needed for this situation.''
    Do you believe, Mr. Dummermuth, do you believe we have an 
adequate number of FBI agents working in Indian Country and do 
you believe the FBI 2020 request reflects the level of need in 
Indian Country?
    Mr. Dummermuth. I would have to defer to the FBI on that.
    Senator Udall. Will you ask them to answer that question? 
And they should answer it in light of this: I was a Federal 
prosecutor, assistant United States Attorney. I worked on 
Native American cases. Here are the numbers that I understand. 
Right now, with 138 Federal FBI agents covering 200 Indian 
reservations with a million people, I am going to quote you how 
many law enforcement per thousand individuals. That number is 
.1, .1 per thousand.
    The national recommended average for law enforcement is 
three, three per thousand. That means that in Indian Country, 
there are 30 times less law enforcement. And we know the 
serious violent problems they have, they are way above the 
national average.
    So I asked you about the 135 officers. You can take all of 
those officers and put them over onto Indian Country and that 
would only double it. This is 30 times bigger. So I think the 
Department of Justice needs to take a really serious look about 
committing to asking for the budget, because they have to go 
through the OMB, but they should ask for the budget that is 
needed. Let us then deal with the issue of where we get it.
    I have one more thing, I just want to put some things in 
the record.
    Mr. Dummermuth, Congress directed DOJ to create the fiscal 
year 2018 and 2019 tribal focus set-asides, because we 
recognized the great need for funding for victim resources in 
Indian Country. However, I have got two letters this week from 
tribes concerned that some administrative decisions made by the 
Department, including dramatic changes to the application 
process, have resulted in delays and failures to get these 
resources out the door. Mr. Chairman, I would like to add both 
of these letters to the record.
    The Chairman. Without objection, so ordered.
    Senator Udall. And to you, Mr. Dummermuth, I would 
encourage the DOJ to encourage that the fiscal year 2019 funds 
are fully obligated and supporting victim services in Indian 
Country. If that means opening a second round of grants for 
this fiscal year, I hope you will take that message back to 
your colleagues and work on making it happen.
    Thank you. Thank you, Mr. Chairman.
    Mr. Dummermuth. May I address that very briefly? I have 
already made the decision to open up another round of 
standalone set-aside grant programs for fiscal year 2019.
    Senator Udall. Thank you very much for doing that. I think 
that will make a big difference.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Dummermuth, thank you for going to Alaska. I appreciate 
it a great deal. I further appreciate the fact that instead of 
just going to Anchorage and Fairbanks, you went to the village 
of Kake. They are a small island community, they have a VPSO. 
But they didn't have one for a while. It is pretty small law 
enforcement, as you know, recruitment and retention is 
difficult. You went to Tanana, a river community not connected 
by road. You had an opportunity to be in Sitka, another island 
community. And as you pointed out, you have been in Kotzebue, 
where you felt the pain of the community still, following the 
death of 10-year old Ashley Johnson-Barr.
    I think that is a good preview of some of the challenges 
that we face with law enforcement and why this is so important. 
I understand further that you were at the consultation there in 
Fairbanks, which was very key. I am sure you heard a lot of the 
pent-up frustration. I would like to think that that is now 
going to translate itself into additional action.
    I thank my colleague, Senator Udall, for bringing up the 
set-aside monies and again, the push to ensure that all those 
funds get out the door, and if they have not gotten out the 
door, that there is an opportunity for a second round. So I 
think that that is important.
    I have a letter here from Central Council Tlingit and Haida 
that I will ask to be submitted for the record, Mr. Chairman.
    It outlines many of the same concerns that you have 
probably heard from those up in the interior. One of the issues 
that I heard raised was that DOJ has a pretty strict policy of 
not allowing applicants to cure technical defects in their 
applications and of not providing technical assistance when 
preparing an application.
    You just indicated in the previous answer that some of the 
problems with getting the money out the door, you said that the 
tribes don't have the infrastructure in place to manage, and 
they don't have that capacity. We have to help them build that 
capacity. This is the problem and why I think it concerns so 
many of us that these were going to go out by way of 
competitive grants, because so many of these tribes are so 
small, they do not have professional staff, they don't have any 
staff. It is them who are trying to wade through this morass.
    So you have to help us with this capacity issue. I would 
hope that you are now taking a different view in how you feel 
you can assist the tribes in being successful with their 
applications, rather than just rejecting them if they have not 
been fully resourced. Is that something that you are doing, in 
terms of trying to be helpful and build that capacity?
    Mr. Dummermuth. Absolutely. We set aside a significant 
amount for the financial management centers to help with 
financial capacity. It is one thing to get the application in, 
but to have to be able to use those otherwise----
    Senator Murkowski. Can I stop you there, though? I would so 
much rather us not put money into financial capacity centers. I 
would rather get that money out the door to the tribe, to the 
community, to provide for the resources there. I hear what you 
are saying, but I want you to be cautious when you say, we are 
spent, we are putting a lot of money over here. We need to get 
that money down on the ground. Agreed?
    Mr. Dummermuth. Absolutely, but if we get the money down on 
the ground, and they mis-spend it, either because they don't 
understand what to do or by mismanaging it, then they end up on 
a high-risk list and their funds get frozen and they end up in 
a worse position long term. So we want to set them up for 
success long term, because they definitely need these 
resources. I certainly saw that. If you have ideas on how we 
can best set them up for success----
    Senator Murkowski. I do think that we have some ideas that 
we would like to share with you. We do have, we have grown a 
lot of capacity in recent years and how we can share that, I 
think, is important. I am going to have a couple more questions 
for the record that I will submit, they are very important.
    One of the things that concerns me is that DOJ maintains 
that these tribal set-aside funds can only be used for 
activities that directly support victims of crime, not for 
prevention or for law enforcement, for prosecution or other 
criminal justice programs or purposes. I think our challenge, 
our problem, our struggle is that if we don't have a responsive 
criminal justice system in the first place, it is tough then to 
be there to help a victim. Again, I think you saw that in the 
communities that you went to. When you don't have a State 
trooper, when you don't have any law enforcement presence to 
speak of, when the only time the law comes is when there has 
been a tragedy, when you are a community like Hoonah, and there 
has been a murder and the body of that young woman needs to be 
literally taped off in the door of the church there and village 
members taking turns to do a watch over her body until hours 
and days until the troopers can come, so that they can preserve 
evidence.
    We have a base infrastructure problem. So I need to know 
that there is some way, that there is flexibility for us in 
ensuring that there are resources that can be made available to 
help the victims, but to help the victims in the first place by 
making sure that we have a responsive criminal justice system. 
You saw for yourself that we don't, in far too many places.
    So whether it is through the VOCA funding, and the set-
aside, there has to be something that we can do on the 
prevention side, on the law enforcement side. I know that this 
is not just Alaska-specific. I know that in far too many other 
reservations, you don't have those that are providing for that 
level of safety.
    So the victim is saying, okay, I will get victim 
compensation funds, but wouldn't it be best to keep her from 
being a victim in the first place?
    Mr. Dummermuth. Absolutely. As a former prosecutor, you 
need the public to be confident that if they report a crime, it 
will be investigated, it will be prosecuted, et cetera. I think 
there are challenges from reporting all the way to victim 
services at the end. So that is one of the questions I asked 
about the VOCA funding, why can't we do more prevention, more 
law enforcement. That simply is a statutory restriction.
    Senator Murkowski. So that is something that we need to 
address here.
    Mr. Dummermuth. It is a longstanding, when the Crime 
Victims Fund was set up, they wanted it to only go to victim 
services. That is why statutorily, it can't be used for law 
enforcement or prosecution. That is not the Department's 
restrictions, that is statutory. There are pros and cons with 
dipping into that, which we won't go into now. But what we can 
do is, we have other funding sources, there is the JAG program, 
those resources can be used to help tribal law enforcement. We 
have the other CTAS purpose areas, so we are investing a lot in 
tribal courts, to give the tribes some greater local authority 
to handle some of the public safety challenges.
    So I agree, it is the whole system, there are challenges. I 
went to Selawik for an afternoon and spent time with a trooper 
there. He said when he got there, usually when the trooper 
shows up to a community, the crime goes up because the people 
are confident in reporting it. Then it goes down, because they 
know there is somebody there who will respond.

    So absolutely, having a law enforcement presence in 
communities is vital. I did not know before going to Alaska 
that there are no roads.
    Senator Murkowski. Eighty-two percent of the communities in 
the State of Alaska are not connected by road.
    Mr. Dummermuth. Right. So the nearest officer is two hours 
away by flight, if there is a pilot, if there is a plane.
    Senator Murkowski. If there is good weather.
    Mr. Dummermuth. If the weather cooperates. So it is hard 
for victims to trust that system sometimes to report. If they 
don't report, they probably aren't going to ask for services or 
compensation. So yes, it is a system-wide issue that we are 
going to have to address as best we can.
    Senator Murkowski. Mr. Dummermuth, it sounds like you have 
a sense, a flavor for the situation and the challenges that we 
deal with. I would like to visit with you to perhaps learn more 
about your impressions and perhaps some of your takeaways and 
your ideas so we can help you on the Administration side, 
working legislatively. But we have this VOCA set-aside, we need 
to make sure that it works. I hope that you take these 
suggestions from these letters that I have introduced and 
Senator Udall has introduced, and we can address some of that. 
I will look forward to our conversation.
    Thank you, Mr. Chairman.
    The Chairman. Senator Smith.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you, Mr. Chair, and welcome, Mr. 
Dummermuth.
    I want to start out by saying I really appreciate the line 
of questioning that senator Murkowski was offering. I 
completely agree with you, that we ought to be thinking about 
this from the prevention side. When we have a crisis on our 
hands, we tend to rush to the problem rather than thinking 
about what we can do to prevent the problem. So if there is 
anything that I can do to work with you on this, I would 
welcome that, because I think it is a very important issue. So 
thank you for that.
    I also want to follow on the line of questioning that 
Chairman Hoeven and Vice Chairman Udall brought up having to do 
with the set-asides. I am so glad to hear that DOJ is 
committing to opening a second solicitation. This was a matter 
of great frustration to Minnesota tribes who just were not able 
to participate as they wished they could have, because this was 
caught up in this bigger grant solicitation. So that will make 
a big difference to Minnesota tribes, that that will get fixed.
    I have another question related to that. it is my 
understanding that the Department set the maximum award cap for 
tribal VOCA grants in fiscal year 2018 at $720,000. Then the 
Department decided to lower that cap to $500,000 for fiscal 
year 2019 grants.
    Can you explain how the Department settled on these caps, 
settling particularly on lowering it by $120,000?
    Mr. Dummermuth. Yes. Thank you for that question. We put 
out that solicitation last November, end of November, the CTAS 
programs. At that time, we did not know what the funding level 
would be from Congress. We just in fiscal year 2018, we had 
just under 200 applications submitted. So it was based on our 
best estimate at the time of the level of interest from fiscal 
year 2018 and an estimate of what kinds of funds might be 
available. So we were surprised to get more than that. That is 
partly why it is less than it was in the $720,000 number.
    But with the second solicitation, we will be able to 
hopefully fill that gap.
    Senator Smith. Are you aware of any requests by tribes to 
raise or to lift these caps?
    Mr. Dummermuth. I should clarify that in fact it was not a 
100 percent cap. If they provided justification, tribes could 
ask for more than that in the solicitation, and some did. We 
did fund some over that amount, the $720,000. So there is some 
flexibility in there, and we are discussing how much 
flexibility to put in going forward.
    Senator Smith. So my interest and concern here is to make 
sure that the Department is working with the tribes and doing 
the right level of consultation on this, obviously, that you 
are working with tribes as you reconfigure this part of the 
grant program as well as the others that you are working on. I 
think that is so important.
    The department has discretion with grant design, but I hope 
that the Department will respect the government-to-government 
relationship that exists and make these decisions with tribes 
and not for them.
    Mr. Dummermuth. Yes, and it was very helpful to be at the 
consultation in Fairbanks on May 1st. We had, I think 36 tribes 
there from the 40-plus and the Tanana Chiefs.
    Senator Smith. What did they have to say about this?
    Mr. Dummermuth. I think the paper is in the record, if you 
want to see. We are still collecting comments, they are still 
open until July 1st. There was a range of things from how the 
process is done to questions about what expenses are allowable 
and what are not. So there was a wide-ranging talk late into 
the night. We had feedback on a lot of things.
    Senator Smith. All right. Thank you. I look forward to 
working with you on this issue that Senator Murkowski raised 
and I appreciate your attention to the kind of consultation 
that we need to do.
    Mr. Dummermuth. Thank you.
    Senator Smith. [Presiding.] Thank you. I recognize Senator 
Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Madam Chairman.
    Mr. Dummermuth, I want to talk a little bit about what is 
going on with the missing and murdered indigenous women, 
particularly in Montana. This is a crisis that I think is still 
underreported and that needs more attention. In fact, it is 
unknown by the general public, even as much as we are starting 
to talk about it. As I engage Montanans and we start to talk 
about this, those who are not involved with the issue, they are 
still finding out oftentimes for the first time.
    The facts are undeniable. Indigenous women are facing 
murder rates ten times the national average. It is an 
unacceptable reality. In fact, as I travel around Montana, I 
hear from families affected by this tragic crisis. One of the 
most frustrating experiences for families is the lack of 
information that is shared from Federal law enforcement 
agencies.
    Last week, I asked Assistant Secretary Sweeney, who was 
right here in front of this Committee if the Office of Justice 
Services at BIA had access to evidence under the FBI. And the 
answer was no. My question is, what type of access do 
departments with law enforcement agencies have to FBI data, 
reports or files, if they need them?
    Mr. Dummermuth. Are you asking me specific types of cases?
    Senator Daines. What do they have access to?
    Mr. Dummermuth. I think it depends. I would have to defer 
to the FBI for the specific, what cases, who can get what 
evidence. But I would be happy to get back to you.
    Senator Daines. There is an existing data base, there is a 
grant program to facilitate shared access to this information 
for law enforcement agencies. We can solve this problem. We are 
going to need some help on it.
    Mr. Dummermuth. If I could, I don't know if you are 
referring to the NamUS data base?
    Senator Daines. Yes.
    Mr. Dummermuth. So yes, that is a great resource that we 
are trying to expand the use of. It provides information in two 
different ways. One, it gives criminal justice users with law 
enforcement access to a secure online system to store, share, 
compare sensitive case information about missing or murdered 
indigenous women and girls. But there is also a public site to 
that that allows public stakeholders, including family members, 
to report case information and participate in the search for 
potential matches. That system is up and running and we are 
doing all we can to train people on that and increase the 
access of that.
    Senator Daines. Right. Well, the point is if there are 
existing programs in place, I should not be hearing about 
challenges gaining access to those reports and the evidence. I 
believe more needs to be done to ensure we have better access 
to these FBI reports on file with the BIA, better transparency 
for everybody. These families need answers. That is one of the 
most frustrating issues I hear, it is just radio silence, not 
getting information back.
    I want to shift gears and talk about the issue of 
methamphetamines in Montana. One of the reasons we are seeing 
spikes in violent crime, in fact, when we engage law 
enforcement, when I speak with them, it is crime across every 
level, petty crime as well as violent crime. It is tied 
directly to a dramatic increase in the use of methamphetamines. 
This is directly a result of the flood of Mexican meth coming 
from the southern border.
    Once upon a time, the home-grown meth, years ago, was the 
Sudafed and the Drano, home-grown labs, and they produced meth 
with purities of 25 to 35 percent. The Mexican cartel meth has 
purities of 95 percent and even greater. So it is far more 
potent, far more dangerous, and far more addictive. It is 
cheaper, because distribution is everywhere.
    It is coming right across the southern border. I spent a 
night on the southern border literally watching our border 
patrol chasing the flood of illegal immigrants coming across, 
opening up the ability to have more drugs coming across the 
border. In fact, they tell us they are stopping about 7 percent 
of illegal drugs, if you look at all of them, including 
opioids.
    Here is the problem. Indian Country is being 
disproportionately affected by the lack of border enforcement. 
Currently, meth use among American Indians or Alaska Natives 
age 12 and older is twice that of the overall population of the 
United States. As I spend time on the reservations, their law 
enforcement tells me it is oftentimes the first place that meth 
goes is into Indian Country.
    Last Congress, I worked to pass the Mitigating Meth Act, 
which expands the State's targeted response to the opioid 
crisis grants to include Indian tribes as eligible recipients. 
Has DOJ been able to roll out these changes to ensure that 
tribes now have access to those grants?
    Mr. Dummermuth. I would have to get back to you on the 
specific programs. But we are trying to make more clear this 
year in our solicitations when tribes are eligible. I think 
last year they were eligible, but we didn't make it express. So 
we are trying to clear up that confusion. If there are 
particular grants you are interested in, I would be happy to 
look into that and let you know if they are eligible.
    Senator Daines. Well, we passed that, Congress acted on the 
Mitigating Meth Act, so that Indian tribes are eligible 
recipients. Given the crisis we see in Indian Country, and as I 
spend time with law enforcement and families with missing and 
murdered indigenous women, oftentimes it is tied back to drugs 
as well, and meth. So this all ties together. I want to make 
sure we have acted in Congress to ensure that tribes are 
eligible recipients. We need to continue to expedite that, if 
you would, please.
    The other thing I hear from our Federal agencies is the 
lack of resources they need right now to effectively combat 
meth. We also want to make sure the Justice Department has a 
detailed plan to combat meth in Indian Country alongside other 
communities. Could you discuss and give us thoughts around what 
DOJ is doing to fight the meth epidemic in Indian Country?
    Mr. Dummermuth. There are two things I can think of off-
hand that we are doing that would help in tribal areas. One, in 
the opioid money that goes out through the COPE (phonetic) 
program, we are requesting that it be, that the focus still be 
on opioids, but if the States have meth issues as well, that 
those funds be expanded to be used for that.
    Senator Daines. And to be clear, this is one of the debates 
we had in the last Congress, is that we know we have an opioid 
crisis in parts of our Country, in the northeast and throughout 
the middle part of our Country. As we look further west, it is 
meth. Opioids are coming, opioids are there. The fentanyl 
distribution is coming, it is just a matter of time before we 
start seeing that coming up from Mexico.
    Mr. Dummermuth. Yes.
    Senator Daines. But at the moment, meth is our number one 
issue.
    Mr. Dummermuth. Right, and there is a lot of money out 
there, $330 million that the Department gave out to combat the 
opioid epidemic. So what we are doing is asking for greater 
flexibility for the grantees who get that to adapt it to their 
local situation. So where I come from, Iowa, it is the same 
problem you said about Montana, it is more meth than it is 
opioids, and it is from Mexico, it is not home-grown. So I 
understand that completely.
    Senator Daines. Right.
    Mr. Dummermuth. So we are requesting greater flexibility 
from Congress to let the States adapt those programs to what 
they are really seeing on the ground.
    Senator Daines. Yes.
    Mr. Dummermuth. The other thing we are doing is, on the 
victim side, we are using some of the set-aside money to expand 
programs for kids who are affected by the opioid epidemic. And 
also to expand that to allow any drug epidemic, because they, 
their parents, if they have issues, they are more likely to be 
abused or neglected, see violence, have trauma. So we are 
trying to help the kids specifically through some problems.
    Senator Daines. Yes, that is the other, it is heartbreaking 
to see, engaging in treatment centers and talk about 11-year 
olds, 11-year olds coming in with meth issues.
    Mr. Dummermuth. Yes.
    Senator Daines. [Presiding.] Not to mention infants and so 
forth, too, from the neonatal side as well.
    Well, thank you. I know Senator Murkowski mentioned you had 
come up to Alaska and visited there. I would like to invite you 
to come out to Montana and see it. Just think of it as Iowa 
with mountains and maybe a little better fly-fishing. But we 
would like to have you out there so you could see first-hand 
these very serious issues plaguing our tribes. Thanks.
    If there are no more questions on the budget, we are now 
going to take a very brief recess and move to our second panel 
and begin the legislative hearing for Senate bill 1211, the 
AUTOS Act. That will allow us time here to reset the name 
plates and take a brief recess.
    [Recess.]
    The Chairman. [Presiding.] All right, we will now hear from 
our witnesses on panel two. First, Mr. John Tahsuda, Principal 
Deputy Assistant Secretary, Indian Affairs, U.S. Department of 
the Interior. Then the Honorable Jamie Azure, Chairman, Turtle 
Mountain Band of Chippewa Indians in Belcourt, North Dakota.
    Thanks for being here. We appreciate it very much.
    With that, Secretary Tahsuda, go ahead with your testimony.

        STATEMENT OF JOHN TAHSUDA III, PRINCIPAL DEPUTY 
           ASSISTANT SECRETARY, INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Tahsuda. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee. Thank you for inviting the 
Department of the Interior to provide testimony on S. 1211, the 
Addressing Underdeveloped and Tribally Operated Streets Act. My 
name is John Tahsuda, I am the Principal Deputy Assistant 
Secretary for Indian Affairs.
    And on behalf of the Department, I would like to thank the 
Committee for its efforts to draw attention to the 
transportation programs and resource needs of tribal 
transportation in Indian Country. It is encouraging to see 
proposed legislation that specifically addresses many of the 
concerns we have been hearing from tribal leaders and tribal 
transportation professionals. I will offer a few comments and 
suggestions on the bill as part of my testimony today.
    Section 3(a) of the bill defines tribal transportation 
safety projects by referencing a list of eligible projects 
similar to current 23 U.S.C. Section 148(a)(4). Under previous 
legislation, P.L. 112-141, the MAP-21 Act, there was a broad 
definition for highway safety improvement projects. The Fixing 
America's Surface Transportation Act, the FAST Act, P.L. 114-
94, changed that definition to include only projects on a 
specified list. A number of tribes have expressed concerns that 
the change in the definition restricted the number of eligible 
projects to only those listed, which meant the exclusion from 
funding for some safety projects that they believed were 
valuable and effective.
    The AUTOS Act appears to clearly redefine the list, similar 
to U.S.C. Section 202(e). We would suggest that the Committee 
consider modifying the definition to allow greater flexibility 
for tribes to propose, and the Secretary of Transportation to 
be authorized to approve, if appropriate, additional safety 
projects beyond those listed.
    Next, Section 3(b) of the bill directs the Secretary of the 
Interior to examine 23 C.F.R. Section 771.117 and determine 
which categorical exclusions listed there could be applied to 
projects funded by the Tribal Transportation Program. We 
suggest that this may not be needed. As part of the 2016 update 
to regulations by the department governing the Tribal 
Transportation Program at 25 C.F.R. Part 170, the Department 
adopted the categorical exclusions at that 23 C.F.R. Section 
771.117 for any projects funded by the Tribal Transportation 
Program.
    We are, at the Secretary's direction, updating the 
Department manual to reflect that once complete, this should 
further speed implementation of 25 C.F.R. Section 170.453 at 
our regional and agency office level. However, should the 
Committee prefer to make those categorical exclusions 
statutory, we would support that and suggest amending 23 U.S.C. 
Section 202 to include language similar to what we now have at 
25 C.F.R. Section 170.453.
    We support Section 3(c) related to the review of tribal 
safety projects as drafted, but we suggest that the Committee 
consider expanding the application of this provision beyond the 
Tribal Transportation Safety Program to include the review 
process for all projects that may be carried out under the 
Tribal Transportation Program. As currently drafted, the 45-day 
mandate would apply to eligible projects under the Tribal 
Transportation Safety Program set-aside authorized by 23 U.S.C. 
Section 202(e). That amounts to just 2 percent of the funds 
made available under the Tribal Transportation Program.
    There are many more projects with greater diversity and 
complexity in the remaining 90 percent plus of the Tribal 
Transportation Funds that are not included in the current bill 
language. Yet many of those projects are considered safety-
related. Coupled with the Department's adoption of the 
categorical exclusions for tribal transportation funded 
projects, we believe that mandating a 45-day timeline for 
making that determination is reasonable and would be considered 
beneficial by the tribes.
    Section 7 requires the Secretary to carry out a study to 
evaluate road maintenance on Indian lands as defined by Section 
7(a)(1). We support this provision, because the study will 
provide us new information and data currently lacking in our 
tribal transportation program, as well as insight into the 
backlog of needs across Indian Country. This is important, 
because the study could also shed light on the short and long 
term actions of all public authorities that have investment in 
transportation infrastructure on Indian lands.
    One note also, Section 9. The BIA Office of Justice 
Services is presently using Sate crash report forms and 
uploading them into our Incident Management Analysis and 
Reporting system. These crash forms are uploaded as a .pdf 
external document to the system. As such, the Office of Justice 
Services is unable to perform specific data searches and 
statistical information is difficult to obtain, consuming time 
and resources.
    The IMAR's electronic crash reporting capability is now 
functional in the IMAR system. We would therefore recommend 
striking the provision requiring the use of crash reports from 
the applicable State in IMAR in place of using the specific 
electronic system. We would also suggest further, however, 
working, and we would be happy to work with the Committee on 
not referencing a specific system or program so that in the 
future, as needs change, we would have the authority to use 
something else, if a better program or system became available. 
We are happy to work with the Committee on developing some 
language and a process that would be beneficial to Indian 
Country.
    In conclusion, from the Department, I would like to thank 
the Committee, and you, Chairman, for the opportunity to 
provide testimony on the AUTOS Act. We look forward to 
continuing to work with you and our tribal partners and our 
partners in the Federal Government, including the Federal 
Highway Administration, in supporting and sustaining safe and 
effective transportation programs for tribal communities 
throughout Indian Country. The issues addressed in the AUTOS 
Act will positively impact and be an important part of 
employment, economic infrastructure and road safety for tribes.
    I am happy to answer any questions you may have.
    [The prepared statement of Mr. Tahsuda follows:]

  Prepared Statement of John Tahsuda III, Principal Deputy Assistant 
       Secretary, Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall and members of 
the Committee. Thank you for inviting the Department of the Interior 
(``Department'') to provide testimony on S. 1211, the ``Addressing 
Underdeveloped and Tribally Operated Streets Act'' (``AUTOS Act'').
    My name is John Tahsuda and I am the Principal Deputy Assistant 
Secretary--Indian Affairs. On behalf of the Department, I would like to 
thank the Committee for its efforts to draw attention to the 
transportation programs and resource needs of Tribal Transportation in 
Indian Country. It is encouraging to see proposed legislation that 
specifically addresses many of the concerns we have been hearing from 
tribal leaders and tribal transportation professionals.
    The Department offers the following comments and suggestions on the 
AUTOS Act as part of my testimony today.
Section 3. Categorical Exclusions to Certain Tribal Facilities
    Section 3 (a) of the bill defines ``Tribal Transportation Safety 
Project'' (TTSP) by referencing a list of eligible projects similar to 
23 U.S.C.  148 (a)(4) and this may be a concern for tribes. Under the 
``Moving Ahead for Progress in the 21st Century Act'' (MAP-21), P.L. 
112-141, section 148 (a)(4) defined a ``highway safety improvement 
project'' as including, ``but not limited to, a project for 1 or more 
of the following'' eligible projects. The ``Fixing America's Surface 
Transportation Act'' (``FAST Act''), P.L. 114-94) changed the 
definition to read: ``(B) INCLUSIONS.--The term ``highway safety 
improvement project'' only includes a project for 1 or more of the 
following'' list of eligible projects. (Emphasis added.)
    The change from ``not limited'' to ``only'' in the definition 
restricted the number of eligible projects to those listed. The tribes 
are concerned about the new limitation because some safety projects 
that they believed were valuable and effective are now ineligible for 
funding. The AUTOS Act appears to clearly re-define the list of 
eligible projects to those currently eligible under 23 U.S.C.  202 
(e). We ask that the Committee consider modifying the definition to 
allow greater flexibility for tribes, possibly by removing the word 
``only'' in 23 U.S.C.  148 (a)(4)(B), or by inserting a clause at the 
end of Section 3 (a) stating that, notwithstanding the limitation in  
148 (a)(4)(B), tribes may propose, and the Secretary of Transportation 
may approve, additional safety projects beyond those listed.
    Next, Section 3 (b) of the bill directs the Secretary of the 
Interior to examine 23 C.F.R.  771.117 and determine which Categorical 
Exclusions (CXs) listed there could be applied to projects funded by 
the Tribal Transportation Program (TTP). We suggest that this 
subsection may not be needed because as part of the 2016 update to the 
regulations governing the TTP at 25 CFR Part 170, the Department 
adopted the CXs at 23 CFR  771.117 for any projects funded by the TTP 
at 25 CFR  170.453:

          170.453 Do the Categorical Exclusions under the National 
        Environmental Policy Act (NEPA) and the regulations at 23 CFR 
        771 apply to TTP activities?

         Yes. Regardless of whether BIA or FHWA is responsible for the 
        oversight of a Tribe's TTP activities, the Categorical 
        Exclusions under NEPA at 23 CFR 771.117 governing the use of 
        funds made available through title 23 shall apply to all 
        qualifying TTP projects involving the construction or 
        maintenance of roads.

    Additionally, at the Secretary's direction, the Department is 
updating its Departmental Manual to include Part 170's adoption of the 
CXs at 23 C.F.R.  771.117. Once complete, this should further speed 
implementation of 25 C.F.R.  170.453 at the BIA Regional and Agency 
level. In light of the regulation's adoption of 23 C.F.R.  771.117, if 
the Committee prefers to address CXs in the bill then we suggest 
amending 23 U.S.C.  202 to include language similar to 170.453.
    We support Section 3 (c), related to the review of tribal safety 
projects, as drafted but we suggest that the Committee consider 
expanding the application of this provision beyond the Tribal 
Transportation Safety Program (``TTSP'') to include the review process 
for all projects that may be carried out under the TTP. As currently 
drafted, the 45-day mandate would apply to eligible projects under the 
TTSP set-aside authorized by 23 U.S.C.  202 (e) that amounts to just 2 
percent of the funds made available under the TTP. There are many more 
projects with greater diversity and complexity in the remaining 90%-
plus of TTP funds that are not included in the current bill language, 
yet many of those projects are considered safety related. Additionally, 
activities accounting for approximately 80 percent of the proposed 
TTSP-eligible projects such as development of safety plans, road safety 
audits and studies, do not involve construction and may not be covered 
by Section 3 (c).
    Coupled with the Department's adoption of the CXs at 23 C.F.R.  
771.117 for TTP-funded projects, we believe that mandating a 45-day 
timeline for making a determination is reasonable and would likely be 
very beneficial to tribes.
Section 5. Use of Certain Funds
    This section would establish a separate funding amount for the 
replacement and rehabilitation of deficient tribal transportation 
facility bridges. Of the approximately 1,000 BIA bridges across the 
country, 169 are considered structurally deficient or functionally 
obsolete. We estimate that it will cost over $105 million to repair, 
rehabilitate or replace these deficient or obsolete bridges. 
Additionally, there are approximately 2,400 bridges within Indian 
Country that are the responsibility of other public authorities such as 
states, counties or towns. Of these bridges, 393 are considered 
structurally deficient or functionally obsolete, with an estimated cost 
for repair, rehabilitation or replacement of over $440 million.
Section 6. BIA Road Maintenance Program
    Section 6 authorizes additional funding for the BIA Road 
Maintenance Program (RMP), which would increase available funding 
specifically for BIA roads, bridges and other eligible transportation 
facilities. Its enactment could result in a total maintenance budget 
for BIA roads of at least $46,000,000 in FY 2021. In short, eligible 
public roads are those identified as the responsibility of the 
Secretary of the Interior. It appears that the funds authorized under 
this Section will be in addition to the annual Department 
appropriations for the RMP that are allocated among the ten (10) BIA 
regions consistent with the historic funding allocation methodology to 
carry out maintenance activities on eligible facilities consisting of 
approximately 29,100 miles of BIA roads and 1,000 BIA bridges.
Section 7. Study of Road Maintenance on Indian Land
    Section 7 requires the Secretary to carry out a study to evaluate 
road maintenance on Indian Lands, as defined by Section 7 (a)(1). We 
support this provision because the study should provide new information 
and data currently lacking in the TTP as well as insight into the 
backlog of needs across Indian Country. The study could also shed some 
light on short and long term actions of all public authorities that 
have an investment in transportation infrastructure on Indian Lands.
    Carrying out the study will pose new but not insurmountable 
challenges because the public transportation facilities (roads, 
bridges, trails, etc.) on Indian Lands are located in 37 States, 482 
counties, 34 boroughs and 13 parishes, as well as 573 tribal nations 
each with their own asset management protocols and road maintenance 
methods. This provision is interpreted to mean a study of road 
maintenance on all public roads on Indian Lands, or the entire 155,000 
miles of the National Tribal Transportation Facility Inventory. To be 
clear, the Secretary is limited in the role of evaluating the roads 
owned by others (tribal, counties, municipalities and states) because 
much of the data is exclusive to those other public authorities.
Section 9. Tribal Transportation Safety Needs
    The BIA Office of Justice Service's (OJS) is presently using state 
crash report forms and uploading them to the Incident Management 
Analysis and Reporting System (IMARS) These crash forms are uploaded as 
a PDF external document to the system. As such, OJS is unable to 
perform data specific searches and statistical information is 
difficult, consuming time and resources. The IMARS electronic crash 
reporting capability is now functional in the IMARS system. We 
therefore recommend striking the provision requiring the use of crash 
reports from the applicable state and IMARS as being the specific 
electronic system. The OJS will begin using an electronic crash report 
starting in the fall of 2019. We are happy to work with the committee 
to develop a process that is beneficial to Indian Country.
Conclusion
    The Department of the Interior would like to thank the Committee 
for this opportunity to provide testimony on the AUTOS Act. We look 
forward to continuing to work with this Committee, our tribal partners 
and the Federal Highway Administration in supporting and sustaining 
safe and effective transportation programs for tribal communities 
throughout Indian Country. The issues addressed in the AUTOS Act will 
positively impact and be an important part of employment, economic 
infrastructure and road safety for tribes. I would be happy to answer 
any questions you may have.

    The Chairman. Thank you, Secretary Tahsuda.
    And again, Chairman Azure, thanks for being here, and we 
appreciate your testimony.

 STATEMENT OF HON. JAMIE AZURE, CHAIRMAN, TURTLE MOUNTAIN BAND 
       OF CHIPPEWA INDIANS; ACCOMPANIED BY RON TROTTIER, 
                    TRANSPORTATION DIRECTOR

    Mr. Azure. Boozhoo. Indizhnicaus Ogima Kitagasi Kinew. Neen 
Mikinak Wajooh Anishinabe Oshikoonigauun. Mino Giizhigan 
Noongom. That means hello, my name is Chief Spotted Eagle. I am 
from the Turtle Mountain Band of Chippewa Tribe and it is a 
good day.
    Thank you, distinguished members of the Committee, for the 
invitation and allowing me to speak on behalf of our tribe and 
tribe throughout our great Nation for the proposed Addressing 
Underdeveloped and Tribally Operated Streets Act, also known as 
AUTOS. The AUTOS Act is a step in the right direction to 
address some of the many needs of our Bureau of Indian Affairs, 
or the BIA, and tribal road systems. I would like to thank 
Senator Hoeven and all that have been involved for their work 
on this legislation.
    The AUTOS Act will provide much-needed additional funding 
for the BIA Road Maintenance Program as well as addressing the 
deferred maintenance backlog of existing tribal roads. It will 
make road projects more efficient by improving the categorical 
exclusion process. By funding the Bridge Program separate from 
the Tribal Transportation Program, a higher portion of the TTP 
funds will be available to be redistributed to the tribes. This 
legislation also addresses the tribal transportation safety 
needs by providing tribes the opportunity to improve and access 
crash data available for analysis, study, and implementation.
    The purpose of the BIA Road Maintenance Program is to 
preserve, repair, and restore the BIA system of bridges and 
roadways, and to ensure that the Tribal Transportation Program-
eligible highway structures are maintained. The Road 
Maintenance Program is designed to address the road maintenance 
needs of roads owned by the BIA. Road Maintenance Program 
activities include both routine and emergency road maintenance, 
bridge maintenance, and snow and ice removal, among other 
things. Routine road maintenance activities may include, but 
are not limited to, surface pavement crack sealing and 
patching, surface grading, ditch slope and bottom maintenance, 
vegetation control, culvert cleanouts and replacements, sign 
maintenance and replacement, preparing winter materials and 
other routine works. Road maintenance does not include new 
construction, improvement or reconstruction.
    BIA roads are open to the public and are often major access 
corridors for tribal communities. The national BIA road system 
consists of more than 930 BIA-owned bridges and approximately 
29,000 miles of proposed and existing roads. Approximately 75 
percent of the existing roads are not paved.
    Our own roadway system also currently has 34.5 miles of 
concrete road that was constructed in 1976. Most of our road 
surfaces, whether they are concrete, asphalt or gravel, are 
deteriorating and are extremely dangerous. Because we live in a 
climate that experiences extreme weather conditions and our 
tribal lands have a high water table, our roads are exposed to 
damaging freeze-thaw cycles which happens every year. These 
conditions make traveling our local BIA roads even more 
dangerous in the spring.
    There are about 550,000 Native American students that are 
enrolled in public elementary and secondary schools in the 
United States, not counting Bureau of Indian Education schools. 
In addition, the Bureau of Indian Education operates 185 
schools serving about 41,000 students living on or near tribal 
lands.
    Our own local school system is the greatest opportunity 
tribal members have to receive training and prepare themselves 
to make a meaningful contribution to society. It is of the 
upmost importance that the facilities that serve our education 
system are up to health and safety standards. Improving and 
maintaining our tribal roadways aids in the path to education 
and prosperity by removing physical obstacles that make it 
difficult for tribal members to succeed.
    Our road system is heavily traveled by local school buses. 
Currently students from the Turtle Mountain Community College, 
the Turtle Mountain School System, the Ojibwa Indian School, 
the Dunseith Day School, the Dunseith Public School, the St. 
John Public School, the local Head Start Programs, and also the 
Tiny Turtles preschool are transported to and from daily on our 
BIA and tribal roadways.
    Limited funding for tribal roads has been one of the 
challenges faced in improving and maintaining roads on tribal 
lands and has contributed to the deterioration of these roads. 
Current funding levels have led to less frequent maintenance 
and improvement activities. These conditions have forced most 
tribal maintenance activities to become more reactive to 
emergency situations than proactive, and tribes are unable to 
carry out needed routine road maintenance.
    Dangerous roadway conditions also impede the ability of our 
local first responders to perform their duties adequately. In 
many emergencies, response time is crucial to saving lives. 
Current roadway conditions slow response times, and further 
jeopardize the safety and well-being of our community members.
    Over the years, Road Maintenance Program funding has 
remained relatively flat, while the number of BIA roads 
eligible for these funds has increased. Road maintenance 
funding levels have not kept pace with the growing road 
maintenance requirements, due to the addition of new roads, the 
need to address existing roads maintenance backlogs, and 
emergency operational requirements. The remoteness, tough 
environments, and unavailability of materials on tribal lands 
leads to comparatively higher costs for maintaining roads on 
tribal lands, which further exacerbates funding constraints. As 
roads fall deeper into disrepair through the delay of or 
inability to fund road maintenance activities, the more 
expensive the roads become to repair.
    With a growing population and average daily traffic counts 
increasing throughout our own reservation, we have been 
required to do more work with the limited resources available 
to us. Our road maintenance equipment fleet is aging and most 
of the machinery require just as much time in the shop being 
repaired as they spend serving our community out on our 
roadways.
    Our current road maintenance department consists of five 
full-time employees that serve approximately 180 miles of 
roads. Although they are extremely dedicated and very skilled, 
there is only so much that we can do. We, like most 
reservations, need and would welcome the increased funding 
through the AUTOS Act would provide, so that we, in turn, would 
be able to provide safer transportation on our reservation.
    In closing, I just want to say we came in a good way. We 
will leave in a good way and miigwech for the time that you 
have allowed us. I know everybody's time is important here, and 
I know I went over a little bit, but I did forget to press the 
button right at the beginning.
    [Laughter.]
    Mr. Azure. So thank you, and I am open to answer any 
questions.
    [The prepared statement of Mr. Azure follows:]

Prepared Statement of Hon. Jamie Azure, Chairman, Turtle Mountain Band 
                          of Chippewa Indians
    Boozhoo--Hello
    Indizhnicaus Ogima Kitagasi Kinew--My name is Chief Spotted Eagle
    Neen Mikinak Wajooh Anishinabe Oshikoonigauun--I am from the Turtle 
Mountain Band of Chippewa Tribe
    Mino Giizhigan Noongom--It is a good day
    Thank you distinguished members of the committee for the invitation 
and allowing me to speak on behalf of our Tribe and Tribes throughout 
our great nation for the proposed Addressing Underdeveloped and 
Tribally Operated Streets Act (AUTOS). The AUTOS Act is a step in the 
right direction to address some of the many needs of our Bureau of 
Indian Affairs (BIA) and Tribal road systems. I would like to thank 
Senator Hoeven and all that have been involved for their work on this 
legislation.
    The AUTOS act will provide much needed additional funding the BIA 
Road Maintenance Program as well as addressing the deferred maintenance 
backlog of existing tribal roads. It will make road projects more 
efficient by improving the categorical exclusion process. By funding 
the Bridge Program separate from the Tribal Transportation Program, a 
higher portion of the TTP funds will be available to be redistributed 
to tribes. This legislation also addresses the Tribal Transportation 
Safety Needs by providing Tribes the opportunity to improve and access 
crash data available for analysis, study, and implementation.
    The Purpose of the BIA Road Maintenance Program is to preserve, 
repair, and restore the BIA system of bridges and roadways and to 
ensure that Tribal Transportation Program--eligible highway structures 
are maintained. The Road Maintenance program is designed to address the 
road maintenance needs of roads owned by the BIA. Road Maintenance 
Program Activities include both, routine and emergency road 
maintenance, bridge maintenance, and snow and ice removal, among other 
things. Routine road maintenance activities may include but are not 
limited to surface pavement crack sealing and patching, surface 
grading, ditch slope and bottom maintenance, vegetation control, 
culvert cleanouts and replacements, sign maintenance and replacement, 
preparing winter materials, and other routine works. Road maintenance 
does not include new construction, improvement, or reconstruction.
    BIA Roads are open to the public and are often major access 
corridors for tribal communities. The national BIA Road system consists 
of more than 930 BIA-owned bridges and approximately 29,000 miles of 
proposed and existing roads. Approximately 75 percent of the existing 
roads are not paved.
    Our own roadway system also currently has 34.5 miles of concrete 
road that was constructed in 1976. Most of our road surfaces whether 
they are concrete, asphalt, or gravel are deteriorating and are 
extremely dangerous. Because we live in a climate that experiences 
extreme weather conditions and our tribal lands have a high-water table 
our roads are exposed to damaging freeze thaw cycles every year. These 
conditions make traveling our local BIA Roads even more dangerous in 
the spring season.
    There are about 550,000 Native American students that are enrolled 
in public elementary and secondary schools in the United States, not 
counting Bureau of Indian Education schools. In addition, Bureau of 
Indian Education operates 185 schools serving about 41,000 students 
living on or near tribal lands.
    Our own local school system is the greatest opportunity tribal 
members have to receive training and prepare themselves to make a 
meaningful contribution to society. It is of the utmost importance that 
the facilities that service our education system are up to health and 
safety standards. Improving and maintaining our Tribal our tribal 
roadways aid in the path to education and prosperity by removing 
physical obstacles that make it difficult for tribal members to 
succeed. Our road system is heavily traveled by local school busses. 
Currently students from the Turtle Mountain Community College, the 
Turtle Mountain School System, the Ojibwa Indian School, the Dunseith 
Day School, The Dunseith Public School, the St. John Public School, the 
local Head Start Programs, and the Tiny Turtles Preschool are 
transported to and from school daily on our BIA and Tribal roadways.
    Limited funding for tribal roads has been one of the challenges 
faced in improving and maintaining roads on tribal lands and has 
contributed to the deterioration of these roads. Current funding levels 
have led to less frequent maintenance and improvement activities. These 
conditions have forced most tribal maintenance activities to become 
more reactive to emergency situations than proactive and tribes are 
unable to carry out needed routine road maintenance.
    Dangerous roadway conditions also impede the ability of our local 
first responders to perform their duties adequately. In many 
emergencies response time is crucial to saving lives. Current roadway 
conditions slow response times and further jeopardize the safety and 
well being of our community members.
    Over the years Road Maintenance Program funding has remained 
relatively flat while the number of BIA roads eligible for these funds 
increased. Road Maintenance funding levels have not kept pace with the 
growing road maintenance requirements due to the addition of new roads, 
the need to address existing roads maintenance backlogs, and emergency 
operational requirements. The remoteness, tough environments, and 
unavailability of materials on tribal lands leads to comparatively 
higher costs for maintaining roads on tribal lands, which further 
exacerbate funding constraints. As roads fall deeper into disrepair 
through the delay of or inability to fund road maintenance activities, 
the more expensive the roads become to repair.
    With a growing population and average daily traffic counts 
increasing throughout our own reservation, we have been required to do 
more work with the limited resources available to us. Our road 
maintenance equipment fleet is aging and most of the machinery require 
just as much time in the shop being repaired as they spend servicing 
our community out on our roadways. Our current Road Maintenance 
Department consists of 5 full time employees that service approximately 
180 miles of roads. Although they are extremely dedicated and very 
skilled there is only so much that they can do. We, like most 
reservations, need and would welcome the increased funding and 
opportunities the AUTOS Act would provide so that we, in turn, would be 
able to provide safer transportation on our reservation.

    The Chairman. Thank you, Chairman. We appreciate it.
    Secretary Tahsuda, statistics show that it costs an average 
of $8,000 to maintain one mile of road per year. Using that 
number, it would cost about $236 million to fund BIA roads. Why 
has funding for BIA road maintenance remained relatively flat 
for a long time?
    Mr. Tahsuda. Thank you, Chairman, for the question. The 
bulk of the funding for road maintenance comes from a formula 
from the Highway Transportation Trust Fund. So that has not 
substantially increased over time, over the last few years. So 
the bulk of the funding for tribal transportation maintenance 
has remained fairly static. That is one of the things I think I 
would say we would appreciate, in this legislation, is allowing 
us to focus on some specific items, such as the bridges, 
separating that out so that we can have funding focused on that 
and address some of the critical needs there.
    It is a problem, as Chairman Azure noted, that three-
quarters of the roads in Indian Country are dirt, or what we 
call unimproved roads. They take substantially more maintenance 
than other hard-surface roads. We spend a lot of money keeping 
them up to a passable condition, I wouldn't even say to a good 
condition, but to a passable condition.
    The Chairman. Do you have a plan to address that? Is there 
some plan that you are working on to address that situation?
    Mr. Tahsuda. At the current time, under the funding that we 
have, no. So maybe I can try to explain a little bit further. 
The maintenance funds that we get can only be used to maintain 
a road. So if we have a dirt road, unimproved road, we can't 
use those funds to turn it into a paved road, even though that 
would ultimately save the Federal Government a lot of money 
down the road. We can't use those maintenance funds for that. 
We can only use construction funds for that.
    So as far as upgrading the entire system, it would take a 
major infusion into the construction part of the program to 
accomplish that.
    The Chairman. Are there things you would recommend adding 
to this legislation that could be helpful?
    Mr. Tahsuda. I would say, off the top of my head, three 
things. One, the expanded of categorical exclusions and the 45-
day time period is very helpful. We would be happy to talk 
about other ideas, process-wise, that would enable us to get 
projects done faster or improved faster. I think that the other 
sort of big help would be, and again, we would love to talk to 
your staff and the Committee about some ideas that we, I think 
the tribes probably have better ideas than we do, I would call 
it under the label of cooperation with other agencies. That 
would not just be Federal agencies, but that would also be 
State and other local government agencies.
    Some of the funds, I think that as we read--I am missing 
the section right now of the bill--but it would leave 
flexibility for tribes to use some of the funding they get to 
partner with other State and local agencies. I would say that 
we have seen a substantial improvement in the ability of the 
tribes to cooperate with other governments around them. A 
substantial number of roads that are on the reservation are 
actually roads that are the responsibility of other agencies, 
not the Federal Government and not the tribe, so county, State, 
et cetera.
    Increasing that level of cooperation, and if we can find 
ways, some funding, some other incentives to further encourage 
that, I think would overall help the system immensely, and 
would improve the road conditions in general on the 
reservation.
    We have some other Federal partners, agencies, as well. On 
the southern border, we have CBP, the border patrol that uses a 
lot of the tribe's roads. So we just sort of put, we are able 
to get in place the ability for Customs and Border Patrol to 
give some of their funding to assist with one of the tribes on 
the border whose roads are substantially used by CBP.
    I think there are other instances in which, if we could 
partner with other Federal agencies as well that use a lot of 
the tribal roads a lot, that would be another level of 
cooperation that would be helpful to the overall system. I 
would be happy to talk about some ideas on those with your 
staff.
    The Chairman. Okay, good. Chairman Azure, how much money 
does your tribe spend on maintaining roads, do you know?
    Mr. Azure. We currently receive $367,542 for maintenance 
activities. Of that, 75 percent of it had to be used on the 
employee's salaries and fringe. That comes as almost a double-
edged sword. We have to build our capacity, like was said 
earlier, to have the right people doing the right jobs. So that 
has to drive up that salary a little bit. And the next thing 
you know, we are having to take from the Tribal Transportation 
Program funds to supplement the Road Maintenance Program, which 
hinders the tribe's ability to perform much-needed construction 
and reconstruction of our roads. So we are having to supplement 
from one program through our transportation dollars. It is 
suffering through, it is almost taking from one to pay the 
other.
    So we are never able to reset the system, we are never able 
to start from a phase one to actually address the problems. We 
are always in a reactionary mode, to fix and to make sure that 
our children are safe that are out on all of these roadways and 
the bus systems. We have literally 10 schools that drive on our 
roads, and all of these students are forced to go onto these 
roads, because they need their education to get to the next 
level.
    So you can see how it hits very close to home. I have two 
daughters that go to two separate schools. They take two 
different ways to get to their schools, and they both run into 
these situations on our roadways.
    We literally had my six-year old daughter's bus last year 
hit a frost boil that popped up, they pop up hourly because of 
our high water tables and the negative 50 below wind chills 
that we get in the Turtle Mountains. That frost comes up and it 
comes up fast. It destroys pieces of our road, and you can't 
forecast where it is coming from.
    Her school bus had to stop on the side of the road and wait 
for another bus to come and pick up all of these little 
students off the school bus. It makes you think, you are glad 
that everybody's okay, you are glad that our bus drivers have 
that capability to react as they do. But what if they didn't 
see something? What if? And we are forcing our students to go 
onto these roads, because we have no choice. That is how they 
know that they are going to get through education. That is how 
we change the world, is through education.
    But we are hindering it with having to supplement for five 
employees that are all over our 200 miles of roads on our 
little reservation, from left to right. And we can't put a plan 
together because everything is reactionary and we have such a 
short season.
    So I know that is a long version of the question you just 
asked, and I apologize for that.
    The Chairman. No, that is fine. Do you have partners or, 
are there other partners or funding sources that you can 
utilize for roads?
    Mr. Azure. I would probably defer that to my transportation 
director, with additional partners. This is Ron Trottier, he is 
the Turtle Mountain Tribal Transportation Director.
    The Chairman. Come on up.
    Mr. Trottier. Thank you for inviting me. Yes, we currently 
partner with our county officials. We have an MOU where we have 
some tradeoff roads. But even that is a constant struggle. They 
are also working with limited resources. So yes, there is a 
partnership, to answer your question, but it still isn't 
adequate. We still can't react properly, we still can't plan 
properly. Again, they are kind of dealing with the same issues 
that we are.
    The Chairman. Okay. I think it highlights the need for this 
type of legislation, and others, not just in Turtle Mountain, 
but across the Country.
    Mr. Tahsuda. Absolutely.
    The Chairman. Again, I want to thank both of you for being 
here, very much. Also, Secretary Tahsuda, thank you for being 
here, and for your testimony and support for the legislation as 
well.
    With that, we will conclude the hearing. The hearing record 
will be open for two weeks. There may be questions submitted 
for the record, and we would ask that you respond.
    I want to thank all of you for being here today, for your 
time and for your testimony, and for your leadership on the 
reservation, Chairman.
    With that, our hearing is adjourned. Thank you so much.
    [Whereupon, at 4:20 p.m., the Committee was adjourned.]

                            A P P E N D I X

      Prepared Statement of the Mandan Hidatsa and Arikara Nation
Introduction
    Chairman Hoeven, Vice Chairman Udall and Members of the Senate 
Committee on Indian Affairs, the Mandan, Hidatsa and Arikara Nation 
(MHA Nation) appreciates the opportunity to provide this testimony for 
the Committee's Legislative Hearing on S. 1211, the Addressing 
Underdeveloped and Tribally Operated Streets (AUTOS) Act. The MHA 
Nation strongly supports the AUTOS Act. New and increased funding is 
needed immediately to address roads construction, maintenance and 
safety on our Fort Berthold Indian Reservation in North Dakota. Safe 
and secure roads are critical to our members and sustaining energy and 
economic development on our Reservation.
    As you know, our Reservation is in the middle of one of the most 
active oil and gas plays in the United States. Even with pipelines and 
rail transport, well-maintained industrial grade roads and bridges are 
the backbone of our energy and economic success. If we can't get trucks 
and equipment to well pads, we can't produce domestic energy resources 
to support our tribal, regional and national economies.
    It is also vital that we provide safe roads for our members and 
communities. Our Fort Berthold Indian Reservation is not an industrial 
park. We live here. These are our homelands. Our members must be able 
to travel safely and easily to work, school, the store and more.
    We need $1.3 billion over the next 10 years to reconstruct and 
maintain our Reservation roads. Recent estimates for new road 
construction to meet industrial standards are about $3 to $3.5 million 
per mile. In addition, over the next 10 years we anticipate needing 
$365 million for transportation improvements and safety.
    The AUTOS Act would be a good start toward addressing this unmet 
need and fulfilling the United States' treaty and trust obligations to 
provide adequate funding to support tribal transportation and economic 
development. The Act would also provide separate funding for overdue 
repair and replacement of bridges. The Act would also streamline 
permitting and approvals for projects needed to increase roads safety 
on our Reservation. All of these measures and more are needed to 
address decades of underfunded Indian reservation roads.
Funding Authorization Increases
    The AUTOS Act represents a long overdue recognition that Indian 
road and bridge maintenance programs are severely underfunded. The 
AUTOS Act would provide $46 million in annual funding with $2 million 
increases each year for 5 years. While this funding is sorely needed, 
unfortunately it represents a drop in the bucket.
    The Bureau of Indian Affairs' (BIA) Roads Maintenance Program is 
currently funded at about $30 million a year. This amounts to serious 
underfunding of a national infrastructure program and does not come 
anywhere close to supporting tribes like the MHA Nation who are engaged 
in energy development. We need about 4 times the $30 million provided 
nationally just to maintain the roads on our Fort Berthold Indian 
Reservation.
    The $30 million in existing roads maintenance funding is 
distributed to all federally recognized tribes according to a formula 
to cover maintenance for 29,100 miles of BIA roads and 1,000 BIA 
bridges. Not counting bridge maintenance, this level of funding only 
provides about $103 dollars per mile. Funding at that level barely 
cover the cost of gas to get crews on-site. As a result, most Indian 
roads maintenance simply does not get completed.
    It is important to note that the United States' obligations to 
adequately fund reservation roads is based on vast cessions of land and 
resources by Indian nations to the United States through treaties and 
agreements. As a result of these treaties and agreements, the United 
States has treaty and trust responsibility to provide basic 
infrastructure needs on our reservations. The AUTOS Act is a good 
start, but much more funding is needed to meet these obligations. At a 
minimum, the AUTOS Act should make clear that the funding authorized is 
in addition to the existing annual funding for the BIA Road Maintenance 
Program.
Funding for BIA Bridges
    The MHA Nation supports establishing a separate funding account 
from the Highway Trust Fund for the replacement and rehabilitation of 
BIA bridges. The AUTOS Act would provide between $16 million and $24 
million over 5 years in annual funding to fix BIA bridges. This amounts 
to $100 million over 5 years. While this funding is badly needed, 
unfortunately, this is funding level does not even cover current needs.
    More funding is needed to keep our bridges and tribal members safe. 
During the hearing, the Principal Deputy Assistant Secretary for Indian 
Affairs testified that:

        Of the approximately 1,000 BIA bridges across the country, 169 
        are considered structurally deficient or functionally obsolete. 
        We estimate that it will cost over $105 million to repair, 
        rehabilitate or replace these deficient or obsolete bridges.

    BIA needs $105 million now, the AUTOS Act provides $100 million 
over 5 years.
    The safety of BIA bridges should be a priority. Our infrastructure 
is crumbling and ready for repair. Our families should not be forced to 
travel on bridges that BIA considers ``structurally deficient or 
functionally obsolete.''
    In addition to repairing existing bridges, we need funding for new 
bridges. In the 1960's, our Fort Berthold Indian Reservation was 
flooded and cut in half by the construction of the Garrison Dam which 
is part of the Pick-Sloan Missouri Basin Program authorized by the 
Flood Control Act of 1944. The Garrison Dam created Lake Sakakawea in 
the middle of our Reservation. The Garrison Dam created a 2 to 14-mile 
gulf within our land base and social networks.
    We have two bridge on our Reservation for travel across Lake 
Sakakawea. These bridges are near the northern and southwestern borders 
of our Reservation. Our members living to the south and east must 
travel long distances, sometimes during extreme weather, to use these 
bridges. Not to mention the strain and delay it places on our law 
enforcement and emergency services, and the limits it places on our 
economic development. We have long needed a bridge to the south and we 
already identified the most effective site to construct this bridge. 
This new bridge has long been authorized by Congress, but never funded. 
The AUTOS Act should provide funding for new bridges, particularly when 
needed to address the impacts of flooding from Federal water projects.
NEPA Categorical Exclusions for Tribal Transportation Safety Projects
    The MHA Nation supports the AUTOS Act's provisions for National 
Environmental Policy Act (NEPA) Categorical Exclusions for tribal 
transportation safety projects. We need to address roads safety issues 
immediately and as they arise. The safety of our members is our number 
one priority.
    The Act's provisions for categorical exclusions should be enacted 
into law even with recent actions by Interior to update its regulations 
to provide similar categorical exclusions. The ability of tribes to 
implement transportation safety projects without delay cannot be 
dependent upon agency regulations. We need the AUTOS Act and these 
provisions passed into law to give Indian tribes the ability to 
effectively manage and complete transportation safety projects.
    The AUTOS Act should also specify that Interior's work to develop 
additional categorical exclusions shall be determined in consultation 
with Indian Tribes. The Act provides just 180 days for Interior to 
develop a new rule with additional categorical exclusions needed by 
tribes. The MHA Nation is concerned that this may not be enough time 
for meaningful and effective tribal consultation. Given that many 
tribal transportation safety projects already have a categorical 
exclusion under Interior's recent update to its regulations, we 
recommend taking the time needed for tribal consultation in the 
identification of additional categorical exclusions.
    In addition, for transportation projects that are not included in a 
categorical exclusion, the AUTOS Act should include provisions for 
Indian tribes to determine which transportation projects will be 
subject to NEPA. Our tribal governments know better than anyone when a 
transportation project is being constructed or repaired in a sensitive 
environment. We can decide when additional review or analysis is needed 
to protect our natural, cultural and social resources. Finally, for 
these projects that are subject to NEPA, the AUTOS Act should include 
provisions for tribally led NEPA analysis with review limited to the 
reservation or adjacent lands.
Conclusion
    The MHA Nation supports the AUTOS Act. The Act is a good start and 
we ask that the Committee amend the bill to increase the funding 
authorizations to meet actual need and take additional actions to 
support economic and energy development on Indian reservations. Roads 
and bridges are the backbone of a successful economy and the United 
States has a treaty and trust responsibility to provide adequate 
funding for these projects.
    On our Fort Berthold Indian Reservation, we need hundreds of 
millions more to maintain our roads and infrastructure while developing 
significant oil and gas resources. These resources add to the United 
States' domestic energy supply and support our tribal, regional and 
national economy. The MHA Nation stands ready to assist Chairman Hoeven 
and the Committee in support of the AUTOS Act and additional roads and 
bridges funding.
                                 ______
                                 
  Prepared Statement of the Ute Indian Tribe of the Uintah and Ouray 
                              Reservation
    The Ute Indian Tribe of the Uintah and Ouray Reservation (Ute 
Tribe) (U & O Reservation) wishes to express its support for the 
passage S. 1211, the ``Addressing Underdeveloped and Tribally Operated 
Streets (``AUTO'') legislation. That said, we do wish to make the 
following recommendations:
On The Bill's NEPA Provisions
    While the Ute Tribe supports the Streamlined CatEx/NEPA process, it 
encourages the Committee to go a step further and finally afford tribes 
the right to truly manage their own environmental compliance on on-
reservation roads projects. This requires, among other things, allowing 
the tribes who wish to do so, the right to make their own governmental 
decisions on the timing and the scope of the NEPA inquiry on an on-
reservation roads project on their own reservation.
    While environmental concerns are always important, to properly 
address those concerns, NEPA should be a locally driven undertaking 
that takes into account local environmental conditions, as well as 
practical factors, like the lack of an alternative route. It should 
also allow those who live in the immediate area, and who view the 
proposed site on a regular basis, to assess whether a greater harm 
would be caused by failing to move forward with the proposed new 
construction. Additionally a proper NEPA inquiry should always be based 
upon the most timely and most accurate information available.
    Today, tribal projects across the country are often held up by 
well-intended people that have never been to the state involved, who 
talk about the reservation on which a given tribal roads project is 
proposed to be located. Thus, many of those individuals are basing 
their conclusions, and in turn their NEPA comments, on what they have 
read and not on what they know or have seen for themselves. To make 
matters worse, many of the federally developed environmental studies 
that they are relying upon, like some endangered species reports, are 
out of date and were performed by biologists who have never made a site 
visit to our reservation. As a result, they often fail to incorporate 
actual or changed conditions in our local area.
    Our Ute Tribal Members live or work on our U & O Reservation, or 
have family who do. Thus, they will never allow their own tribal 
homeland and its environment to be ruined by poorly thought out 
development. Is it not time that we trusted them to make informed 
decisions about the NEPA compliance on their own reservation?
On The Legislation's Bridges Provisions
    The Ute Tribe strongly supports the proposal to return the BIA 
bridge program to a stand-alone status. Tribes should not be forced to 
decide between the safety of a bridge and the safety of the road 
leading up to that bridge. This is one system, and safe bridges without 
safe roads still get people injured or killed.
    Additionally, while returning Indian bridges to a separate funding 
category is a good start, the amount proposed to fund the effort is 
obviously inadequate. If we really want to make progress, the $16 
million proposed needs to be a minimum of $160 million until the 
federal government starts to make a real dent in the tribal bridge 
safety backlog.
On The Road Construction and Major Improvement Provisions
    While the Ute Tribe appreciates the sponsor's efforts to increase 
the funding for tribal road construction and improvement, the amounts 
proposed are clearly inadequate. Our U & O Reservation is the second 
largest reservation in the United States. We have more than 5,000 miles 
of road in our tribal transportation system, and 827.9 of those miles 
are BIA and tribal roads. We also live in an area where the snow and 
ice, that comes every year, causes on-going deterioration to our roads 
and bridges. These are old structures that were never built to sustain 
the combination of snow and ice, delayed maintenance, and heavy use by 
the oil and gas trucks that drive our local and Utah State economy.
    Our tribal transportation experts have calculated that the ``cost 
to improve,'' yes to merely ``improve'' those roads, is in excess of 
$1,323,693,000 ($1.3 billion plus) or $267,683 per mile. This per mile 
estimate is considered conservative by most roads experts, when 
compared with the estimates compiled for comparable improvements, on 
comparable roads, on comparable terrain. And, given that the Tribe only 
receives $5.8 million per year for this work, these improvements will, 
at this rate of funding, take 228 years to complete at FY 2019 dollars, 
if no further deterioration during that period, which is of course 
laughable.
On The Roads Maintenance Language
    The funding proposed for roads maintenance is even more deficient, 
because it is targeted for roads that, as stated above, already require 
major improvement right now. In 2018, our total federal roads 
maintenance budget, for our entire U & O Reservation, again- the second 
largest reservation in the United States, was around $500,000. That 
was, and if FY 2019 estimates are correct, and still is, approximately 
$603 per mile. This is in Utah, where snow is so prevalent that people 
travel here to engage in winter sports. Thus, where road preparation 
and snow removal are needed, sometimes multiple times a day, during the 
winter. So put yourself in the position of our roads director, who has 
$603 per miles for treating roads, snow removal, pot hole repair, 
drainage and culvert repair, and regular taring, line painting and 
other standard roads' maintenance, on the very roads that our school 
busses, ambulances and law enforcement all operate. And on the very 
same roads that his own elders take to church, medical appointments and 
grocery shopping. This should be a national embarrassment.
Conclusion
    In conclusion, while the Ute Tribe wishes to thank the sponsors of 
S. 1211 for their efforts to date, and recognizes that the federal 
budget is not unlimited. It asks the Committee to realize, however, 
that it has been the Congress' past decisions to ignore these very real 
tribal roads and bridges problems that has led to the backlogs that now 
exist. A backlog that will continue to grow exponentially over the next 
few years if something is not done now. Fixing these roads and bridges 
is an investment. It will create jobs and other forms of economic 
development, and it will allow the BIA to live up to its basic treaty 
and trust responsibility.
    While the Ute Tribe is happy to continue to support its local 
transportation system to the extent practical, its income, like all 
private sector dollars, is not unlimited, So, is it not time for the 
federal government to step up and pay its fair share of these costs for 
the roads and bridges that the BIA itself owns?
                                 ______
                                 
                                  Jamestown S'Klallam Tribe
                                                       May 16, 2019
Chairman John Hoeven,
Vice Chairman Tom Udall,
Senate Committee on Indian Affairs,
Hart Senate Office Building,
Washington, DC.
Re: Department of Justice Administrative Barriers Creating 
Hardship for Tribes Ability to Access Victims of Crime Act 
                                                    Funding

Dear Chairman Hoeven and Vice Chairman Udall:

    On behalf of the Jamestown S'Klallam Tribe, I write to urge you to 
exercise your Oversight Authority to address a serious issue that is 
preventing Tribes from being able to access Victims of Crime Act 
Funding. The Office for Victims of Crime (OVC) within the Department of 
Justice (DOJ) Office of Justice Programs (OJP) administers the Crime 
Victims program and funding.
    The current process of administering the program through grants is 
proving to be ineffective, inefficient, and a barrier to Tribes ability 
to access this critical funding. Congress created a Tribal set-aside 
because we so desperately need this funding to create programs and 
services that will assist victims of crime with healing and provide 
them access to justice services that have been lacking for far too long 
within our communities. The utter failure of the current process is 
clear with the DOJ having returned $24 million of the FY 2018 Tribal 
set- aside and the significant drop in the number of Tribal applicants 
receiving funds in FY 2019 despite the overwhelming need. Congress did 
not authorize a Tribal set-aside and increase the amount of funding 
available for Tribes for this injustice to continue to occur.
    The FY 2018 Victims of Crime Act Tribal Set-Aside Grant 
Announcement indicated that Tribes could request up to $720,000. DOJ 
then informed Tribes that if there were funds left over after the 
initial grant awards were made, Tribes could request additional dollars 
if they could demonstrate additional need and DOJ, at their discretion, 
could award a Tribe additional funds. DOJ received 195 Phase I grant 
applications from Tribes and awarded 178 applicants funding. Each Tribe 
that was selected could have received close to $618,000 dollars because 
the total amount available to Tribes was $110 million Jamestown 
S'Klallam Tribe Letter--The Honorable John Hoeven and Tom Udall Re: DOJ 
Administrative Barriers to VOCA Funding after DOJ took $23 million off 
the top. It would be helpful to know what funding methodology DOJ 
adhered to in making the grant awards.
    In 2018, Jamestown applied for the FY 2018 Tribal Crime Victims 
Services Set Aside Grant and requested the maximum allowable amount of 
$720,000. Although we received notification that we had been awarded a 
grant, the amount of funding awarded to us was nearly half of what we 
originally requested, or, $382,511. In addition, the most significant 
part of our proposal, the purchase of a Mobile Child Advocacy Center 
and its associated personnel, fringe, and other costs were removed. 
Child Advocacy Centers were specifically listed as an allowable cost, 
as were child services. Vehicle purchase and/or lease was also an 
allowable cost.
    However, we were informed by DOJ that if a Tribe did not already 
have a crime victims' program in place the Tribe did not qualify for 
the full amount requested due to lack of experience. It is absurd that 
an agency would use lack of experience as a basis for denying full 
funding when this is the first opportunity Tribes had to access these 
funds to create a crime victims' program. The agency determined we did 
not have the capacity to operate the program before we even had an 
opportunity to establish a program. It is not only insulting and 
offensive, but these standards are arbitrary and capricious.
    Congress created the Crime Victims Fund in 1984 with the idea that 
money collected from those that commit crimes should be used to assist 
those that have been victimized. Each year, the fund is financed by the 
collection of funds, penalties and bond forfeitures from defendants who 
have been convicted of Federal criminal offenses. It is important to 
note that the fund receives no tax payer's dollars. The Department of 
Justice disperses the amounts collected to states and other entities 
and, in recent years, Congress raised the cap on distributions 
effectively quadrupling the amount available for program recipients. 
Despite these substantial increases, Tribes had been left out of the 
recipient pool for well over thirty (30) years.
    In FY 2018, this ongoing inequity of funding changed when the 
Omnibus Bill provided a 3 percent or $133 million Tribal set-aside and 
in FY 2019 the funding was increased to 5 percent or $167.5 million. 
Tribes were elated and deeply appreciative to Congressional 
Appropriators for providing a direct funding stream to Tribes given the 
overwhelming statistics regarding crime victimization within our 
communities. According to the DOJ National Institute of Justice, more 
than four out of five American Indian/Alaska Native (AI/AN) women have 
experienced some form of violence in their lifetime with more than half 
having experienced some form of sexual violence. It has been documented 
that the rates of violence on reservations can be up to ten times 
higher than the national average.
    Native children are at higher risk of being victims of crime with 
50 percent more likely to experience child abuse and sexual abuse than 
their non-Native counterparts. In 2016, the National Crime Information 
Center in the Federal Bureau of Investigation reported there were 5,712 
missing AI/AN women and girls and the Center for Disease Control has 
ranked murder as the third leading cause of death for AI/AN women and 
girls. Despite these alarming national statistics, the clear majority 
of Tribes are still unable to access crime victim funds and the few 
that can access these dollars are only able to do so through a 
restrictive and highly burdensome competitive grant process.
    DOJ had informed us that they were going to make the grant 
application process as simple as possible. The grant application for 
Phase I was 90 pages long and if Tribes were selected as awardees under 
Phase I, they moved on to Phase II which required additional 
documentation. If this is a simple, streamlined approach I would hate 
to see what a more convoluted process would entail.
    Grant funding is, at best, a short-term investment that is used to 
support the ongoing and critical Tribal justice needs. Competitive 
grants do not work well as the main funding source. The time limitation 
leads to instability, the administrative burden on Tribes remains 
excessive, the lack of flexibility creates challenges to addressing 
justice needs, funding is insufficient, and the CTAS application 
process is highly competitive, tedious, and complex and there are many 
restrictions imposed on how Tribes may use the funds. Base funding 
coupled with more flexibility would allow for more effective and 
efficient use of the federal dollar, stronger Tribal justice systems 
and better programs and services for crime victims.
    The FY 2019 grant application process was even more problematic 
than the FY 2018 rollout despite Congressional Appropriators increasing 
the amount of available funding for Tribes. DOJ decreased the amount of 
funding available per Tribe to $500,000 spread over the course of three 
(3) years. In addition, Tribes were required to apply for funds for new 
activities that were separate and distinct from any activities that 
were covered by their FY 2018 grant award even if they did not receive 
the full amount requested in FY 2018. Additionally, the deadline for 
the FY 2019 CTAS application was just seven weeks after the FY 2018 
grant deadline.
    All these application hurdles resulted in only 59 Tribes applying 
for the FY 2019 Victims of Crime Act Funding. DOJ was only able to 
award approximately $29 million of the $167.5 million appropriated 
because of their self-imposed funding caps of $500,000. Is DOJ now 
going to send $138.5 million dollars back at the expense of Tribes? 
This is not what Congress intended and it is not what the Tribes 
deserve.
    AI/AN victims of crime deserve better and we can do better. For 
this funding to achieve its intended purpose, permanent, direct funding 
provided through block grants or a distribution formula developed in 
consultation with Tribal governments is imperative. This will ensure 
program stability and that the funding is being allocated to Tribes as 
originally intended by Congress.
    Our Federal trustees should be held accountable and required to 
assist Tribes in securing this funding as opposed to creating barriers 
through senseless grant requirements and arbitrary rules. A streamlined 
funding approach with greater flexibility would allow Tribes to address 
the unique public safety and justice needs within their communities 
more effectively and efficiently while allowing victims to receive 
quality trauma-informed care.
    We urge your immediate attention in addressing this matter so that 
Tribes can access the Crime Victims Fund Tribal Set-Aside as Congress 
intended and address the needs of Tribal citizens and their community. 
Thank you.
        Sincerely,
                                 W. Ron Allen, Chairman/CEO
                                 ______
                                 
                           La Jolla Band of Luiseno Indians
                                                       May 15, 2019
Chairman John Hoeven,
Vice Chairman Tom Udall,
Senate Committee on Indian Affairs,
Hart Senate Office Building,
Washington, DC.
    Re: URGENT: Action Required to Save the OVC Tribal Set-
                                              Aside Program

Dear Chairman Hoeven and Vice Chairman Udall:

    I write to ask for your help to save the OVC Tribal Set-Aside 
Program, which is on the verge of collapse. I understand you will be 
holding an Oversight Hearing on May 15, 2019 that includes the 
President's FY 2020 budget request for Indian programs. I respectfully 
ask that this letter and comments be considered and made a part of the 
record for the hearing. My comments below address the FY 2018 and FY 
2019 failures of the OVC Tribal Set-Aside program, but a key action 
item is the need for explicit language in the FY 2020 Commerce, 
Justice, Science, and Related Agencies appropriations bill which 
requires OVC to distribute all Tribal Set-Aside funds in the form of 
block grants or a formula developed in consultation with tribes. Tribal 
communities experience the highest rates of crime victimization in 
America. Tribes have been trying for years to obtain a tribal set-aside 
through the Crime Victims Fund to address the needs of crime victims in 
Indian Country. Tribes truly appreciate that Congress, with support of 
the Administration, enacted a 3 percent set aside in FY 2018 ($133 
million) and increased it to 5 percent in FY 2019 ($167.5 million). The 
tribal set-aside program has the potential to transform the way crime 
victim services are provided, and to reach and assist crime victims 
never served or underserved, including large numbers of women and youth 
victims of crime.
    The process of distributing these funds in the form of grants, each 
with distinctly different objectives and three-year time periods, is 
not working and will not work going forward. It is difficult to even 
imagine as time goes on, tribes having to apply for and manage an 
unending number of unique grant awards, just for this one program. It 
is not an exaggeration to say that all time and effm1 would have to go 
toward applying for and managing grants, and not for assisting victims 
of crime.
    We were shocked to learn that DOJ returned about $24 million of 
tribes' FY 2018 crime victim funds back to the general crime victim 
fund account. Congress did not enact this funding for this to happen. 
La Jolla Band ofLuiseno Indians, and tribes across the country, need 
those funds right now, and can put them to use right now, to assist 
crime victims, including women and children. This did not have to 
happen, and the action should be reversed, now.
    We are also extremely concerned, and we have been voicing this 
concern loudly to DOJ officials on multiple occasions that the FY 2019 
tribal set-aside program is at great risk of being lost, because of the 
grant process itselL and excessive grant requirements, unwarranted 
restrictions, extremely small funding cap, and overlapping and super-
short application deadline. We have been sounding the alarm, and we 
reiterate, that actions must be taken now, to ensure that all of the FY 
2019 set-aside funds are distributed to tribes this year in the form of 
block grants or other formula, without overly burdensome restrictions.
    For example: We were given contract monies for drug rehab services 
and counseling, but were not funded for staffing to help administrate 
this grant, which cut our asking amount in half: which makes no sense 
because OVC gave back 24 Million!?
    The Crime Victims Fund tribal set-aside program can be a real game 
changer for tribes and tribal victims of crime, which is what Tribes, 
Congress, and the Administration intended and want to see. And we 
believe DOJ wants to work with tribes to effect a better outcome. We 
have to fix this now, and we have to get all of the set-aside funds out 
to tribes now. Tribes know best how to help their citizens. We can get 
the job done be we must remove excessive burdens.
Questions that need to be asked of DOJ and OVC
    1. In FY 2018 Congress enacted for the benefit of tribes, 3 percent 
or $133 million, from the Crime Victims Fund, of which DOJ made $110 
million available to tribes in the form of grants. We understand only 
$88 million was awarded, and that DOJ returned about $24 million of the 
tribes' funds to the general crime victims fund account. How could DOJ 
allow this to happen? In the FY 2018 announcement, DOJ set a limit of 
$720,000 per tribe, but also indicated tribes could ask for more, and 
that DOJ might at its option, provide additional remaining funds after 
initial awards were made. Tribes desperately need these funds. Can DOJ 
get those FY 2018 funds back to distribute to tribes?

    2. We understand DOJ made a decision to award FY 2019 tribal set-
aside funds through grants under the FY 2019 CTAS program. This was 
clearly problematical for several reasons. First, DOJ imposed a very 
small cap of $500,000 per tribe, to be spread over a three-year period. 
The DOJ also said tribes could not apply for funds for activities 
related to any activities in their FY 2018 applications, and that new 
activities must be separate and distinct. The announced deadline for 
the FY 2019 CTAS application was February 26th, just 7 weeks after the 
deadline for the FY 2018 tribal set-aside application. Because of all 
this, we understand only 59 tribes were able to apply for FY 2019 
tribal set-aside funds under CTAS, which would mean DOJ would only be 
able to award about $29 million of the $167.5 million in FY 2019, 
because of the $500,000 cap, and because of the low number of tribes 
applying because of all the roadblocks presented. We want to know where 
DOJ is at right now, in terms of how it will ensure that the entire 
$167.5 million in FY 2019 funds gets out to the tribes, who so 
desperately need these funds.

    3. We have been hearing over and over from tribes, that although 
they appreciate grant opportunities to address problems in their 
communities, grants have become increasingly burdensome to apply for 
and manage. They are of limited duration, increasingly complicated to 
apply for and manage, there are overlapping deadlines, and tribes must 
design a project based on agency grant requirements rather than the 
needs of the community. Tribes have repeatedly asked DOJ to consider 
distributing tribal funds through block grant or formula driven means. 
Now, with the OVC tribal set-aside program, the amount of tribal 
funding administered by DOJ has essentially doubled, which is good, but 
we must find a way to eliminate the grants process, initially at least 
for the OVC tribal set-aside program. Otherwise, more and more tribes 
will fall through the cracks and not receive this critical funding.
Some of La Jolla's experiences with OVC Tribal Set-Aside Process
    FY 2018 had a two phase application process, with the first round 
of applications due last August 6, and the second phase applications 
due January 4, 2019. The application process was complex, and there was 
some confusion in certain areas, including how much tribes could apply 
for. We had verbally been told by DOJ staff in some meetings, that 
tribes could apply for a larger amount than the OVC estimated cap of 
$720,000, and if there were remaining FY 2018 funds, OVC may increase 
the award amount. Below is some language from the FY 20 18 
solicitation:

         ''OVC expects that award amounts may vary, depending on the 
        project(s) proposed, but typically will not exceed $720,000 per 
        applicant. Applicants may propose, and OVC may award, amounts 
        exceeding $720,000 where justified.''

         ''OVC may, in certain cases, provide additional funding in 
        future years to awards made under this solicitation, through 
        continuation awards. In making decisions regarding continuation 
        awards, OJP will consider, among other factors, the 
        availability of appropriations, if and when the program or 
        project was last competed, OJP's strategic priorities, and 
        OJP's assessment of both the management of the award (for 
        example, timeliness and quality of progress reports) and the 
        progress of the work funded under the award.''

    During the FY 2018 phase one application process, tribes were 
informed the FY 2019 tribal set- aside funds would be administered 
through CTAS Purpose Area 7. OVC had language in its fact sheet that 
was very concerning. First, they announced a cap of $500,000 to be 
spread over three years, even though the FY 2019 set-aside was expected 
to be much larger than FY 2018.
    Second, OVC indicated tribes ``must request funding to support 
activities that are different and distinct''.
    La Jolla Band of Luiseno Indians recently received its FY 2018 OVC 
Tribal Set-Aside award document. The document is 13 pages in length. 12 
of the 13 pages consist of 54 different award special terms and 
conditions! The Administration says it supports reducing regulatory 
burdens, but that's not evidenced here. We recommend that OVC and DOJ 
leadership read through La Jolla's award agreement, and sit through one 
or both of the two required OVC grant webinars. We think doing so will 
provide a better perspective on just how challenging it is for tribes 
just to apply for and manage an award, let alone provide needed 
services to crime victims.
    Thank you for your assistance in saving the OVC Tribal Set-Aside 
program and making it work as intended.
        Sincerely,
                                  Fred Nelson Jr., Chairman
                                  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                          to John Tahsuda III
    Question. In 2015, MAP-21 zeroed out tile Tribal Roads High 
Priority Roads program. Tile program was designed to assist Tribes with 
funding to repair critically important roads vital not only for access 
to reservations, but also to attract economic development. By ceasing 
all funding to tile program, Tribes were forced to compete with local 
governments and municipalities for critical transportation dollars. 
Many tribes in remote regions of the country depended on tile High 
Priority Roads Program and have been penalized for the last four years. 
Can you please explain what is being done to address the much needed 
repairs for high priority roads that serve as lifelines for many 
Tribes?
    Answer. The High Priority Projects (HPP) Program was established in 
2004 with the publication of 25 C.F.R. Part 170, a negotiated rule 
governing what was then known as the Indian Reservation Roads (IRR) 
Program. \1\ Congress changed the name of the IRR to the ``Tribal 
Transportation Program'' (TTP) in 2012. The HPP program began in FY 
2005 and concluded at the end ofFY 2012 with the enactment of MAP-21. 
\2\
---------------------------------------------------------------------------
    \1\ 69 Fed. Reg. 43090 (July 19, 2004); the provisions governing 
HPP program appeared at 25 C.F.R.    170.205-214.
    \2\ See Section 1119 of MAP-21, creating 23 U.S.C.   202 
(b)(3)(A)(ii)--``Tribal high priority projects.--The High Priority 
Projects program as included in the Tribal Transportation Allocation 
Methodology of part 170 of title 25, Code ofFederal Regulations (as in 
effect on the date of enactment of the MAP-21), shall not continue in 
effect.''
---------------------------------------------------------------------------
    The HPP program was designated for tribes whose annual allocation 
was insufficient to complete its highest priority project, or by any 
tribe for an emergency/disaster project on any tribal transportation 
facility. It did not provide funding to all tribes, only to those 
tribes whose funding was generally less than $1 million annually.
    Funds for HPP were derived from 5 percent of the authorized IRR 
program amount, less mandated set-asides on the amount up to $275 
million, plus up to 12.5 percent of the IRR program amount over $275 
million. In FY 2012, the last year of the HPP program, approximately 
$33 million was available.
    When the HPP program was operating, approximately $205 million was 
awarded to 280 Tribes. The table below shows the number of projects and 
distribution of funds awarded by Region:

------------------------------------------------------------------------
                           No. of                      No. of Emergency/
         Region           Projects    Amount Awarded   Disaster Projects
------------------------------------------------------------------------
A-Great Plains                   8         $3,686,913                  2
B-Southern Plains               23        $21,460,361                  2
C-Rocky Mountain                 1           $918,239                  1
E-Alaska                       126        $94,712,725                  1
F-Midwest                        7         $3,962,000                  0
G-Eastern Oklahoma               1         $1,000,000                  0
H-Western                        9         $4,583,648                  1
J-Pacific                       56        $38,832,367                  2
M-Southwest                      7         $6,464,000                  0
N-Navajo                         0                 $0                  0
P-Northwest                     28        $17,606,175                  0
S-Eastern                       14        $12,020,423                  0
------------------------------------------------------------------------

    Not all tribes received HPP program funding. Over the eight years 
the HPP program existed, 84 percent of the available funds and 88 
percent of the awarded projects went to four (4) of the 12 BIA Regions.
    Under the current authorization, the Fixing America's Surface 
Transportation Act (``FAST Act''), P.L. 114-94 (December 4, 2015), the 
statutory TIP funding formula enacted under MAP-21 continued, including 
set-asides for projects that are critical to tribes that allows them to 
receive funding beyond their tribal shares. Examples of these set 
asides include: 2 percent of all TIP funds are made available to tribes 
for transportation planning ($8.9 million in FY 2019); 3 percent of all 
TTP funds are made available to tribes for replacement and/or 
rehabilitation of deficient or unsafe bridges ($13.4 million in FY 
2019); and 2 percent of all funds are made available to tribes for 
priority safety projects ($8.9 million in FY 2019). Additionally, $110 
million is included in the formula and specifically directed to 
increase share amounts to tribes who are projected to receive less of a 
tribal share than the amount they received in FY 2011.
    The Emergency Relief for Federally Owned (ERFO) roads program is 
funded separately through the Federal Highway Administration, Office of 
Federal Lands Highway, and it provides relief funds for emergency/
disaster projects that qualify when applied for by tribes. In FY 2018, 
Tribes received $15.4 million from the ERFO account.

    *RESPONSES TO THE FOLLOWING QUESTIONS FAILED TO BE 
SUBMITTED AT THE TIME THIS HEARING WENT TO PRINT*

   Written Questions Submitted by Hon. Tom Udall to Hon. Jamie Azure
    Question 1. Chairman Azure, in your testimony, you mention that 
your road system is heavily traveled by local school buses. You also 
mention that your area's annual freeze-thaw cycle damages roads. Have 
schools been forced to shut down due to washed out roads or poorly 
maintained infrastructure? If so, how often?
    Question 2. You also mention the aging road maintenance equipment 
you are forced to deal with. Are poor road conditions contributing to 
higher maintenance costs?
                                 ______
                                 
 Written Questions Submitted by Hon. Catherine Cortez Masto to Matt M. 
                               Dummermuth
    Question 1. In your opening testimony you discussed the serious 
challenges tribes face in combating violence. Your testimony 
highlighted that the resources ``tribal professionals have at their 
disposal are often limited'' and that ``it is an understatement'' to 
say that tribal leaders combatting violence ``are often 
overstretched.'' In describing efforts to combat this issue, you stated 
that ``the President's Budget recognizes the gravity of the problem, 
and proposes to direct considerable resources to supporting tribes as 
they develop solutions.'' However, the Office on Violence against Women 
(OVW) reports only a .1 percent funding increase from 2019, and over 
the last three years funding levels have remained stagnant. \1\ Do you 
believe that law enforcement priorities, specifically the crisis of 
missing and murdered American Indians and Alaska Natives, can be 
properly addressed by maintaining current funding levels at OVW?
---------------------------------------------------------------------------
    \1\ https://www.justice.gov/jmd/page/file/1142451/download

    Question 2. The President's budget requests that Tribal funding 
through the Community Oriented Policing Services (COPS) Office be 
funded at $8 million--a decrease compared to the FY 2019 level of $27 
million. Additionally, funding for the Tribal Youth Program at the 
Office of Juvenile Justice and Delinquency Prevention is zeroed out. 
Instead, DOJ intends to fund these programs through a Flexible Tribal 
Grant or ``tribal assistance'' set-aside. \2\ Please detail how the DOJ 
will allocate funds through the set-aside program to ensure all of the 
Flexible Tribal Grant funds are appropriately disbursed to tribes.
---------------------------------------------------------------------------
    \2\ https://www.justice.gov/file/1144566/download 

    Question 2a. Please detail the tribal consultations that have 
occurred regarding best practices for administering funds and the 
---------------------------------------------------------------------------
feedback DOJ received from tribal leaders.

    Question 3. In discussing your department's efforts to address the 
issue of crime experienced by tribal communities, you drew attention to 
the White House proclamation, ``Missing and Murdered American Indians 
and Alaska Natives Awareness Day.'' \3\ In the proclamation, President 
Trump states that his administration is ``improving public safety. . . 
.and expanding funding and training opportunities for law enforcement 
in Indian country'' through ``historic investments'' in tribal public 
safety and victim assistance programs. Please explain what ``expanded 
funding'' in the White House proclamation refers to.
---------------------------------------------------------------------------
    \3\  https://www.whitehouse.gov/presidential-actions/missing-
murdered-american-indians-alaska-natives-awareness-day-2019/

    Question 3a. Please explain what ``expanded training 
---------------------------------------------------------------------------
opportunities'' in the White House proclamation refers to.

    Question 3b. Please detail any plans or requests the White House 
has made to expand funding and training opportunities for law 
enforcement in Indian country.

    Question 4. The White House proclamation states that the Attorney 
General has ``developed a working group dedicated to addressing violent 
crime in Indian country.'' \4\ Please provide a list of members of the 
working group.
---------------------------------------------------------------------------
    \4\ https://www.whitehouse.gov/presidential-actions/missing-
murdered-american-indians-alaska-natives-awareness-day-2019/ 

    Question 4a. Please detail the mission, duties, and 
---------------------------------------------------------------------------
responsibilities of the working group.

    Question 4b. Please provide an accounting of all prior meetings of 
the working group.

    Question 4c. Please detail the ``law enforcement strategies for 
Missing and Murdered Indigenous People (MMIP)'' that have been 
developed or that are being developed as a result of this working 
group.

    Question 4d. Please detail the human trafficking training that has 
been improved or is being improved as a result of this working group.

    Question 4e. Please detail the law enforcement initiatives that 
have been created or are being created as a result of this working 
group.

    Question 5. The Department of Interior (DOI) Budget in Brief for FY 
2020 details a new initiative to focus on violence in Indian Country. 
\5\ Do any components of DOJ participate in this initiative? If so, 
please list the components.
---------------------------------------------------------------------------
    \5\ https://www.doi.gov/sites/doi.gov/files/uploads/
2020_highlights_book.pdf page 18
---------------------------------------------------------------------------

                                  <all>
</pre></body></html>
